<html>
<title> - MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
   MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, MARCH 16, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:08 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Kay Bailey Hutchison (chairman) 
presiding.
    Present: Senators Hutchison, Allard, and Feinstein.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

STATEMENT OF GEOFFREY G. PROSCH, PRINCIPAL DEPUTY 
            ASSISTANT SECRETARY OF THE ARMY FOR 
            INSTALLATIONS AND ENVIRONMENT
ACCOMPANIED BY:
        MAJOR GENERAL GEOFFREY D. MILLER, ASSISTANT CHIEF OF STAFF, 
            INSTALLATION MANAGEMENT
        MAJOR GENERAL WALTER F. PUDLOWSKI, SPECIAL ASSISTANT TO THE 
            DIRECTOR, ARMY NATIONAL GUARD
        BRIGADIER GENERAL GARY M. PROFIT, DEPUTY CHIEF, ARMY RESERVE

           OPENING STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. I'll call this meeting order. I'm very 
pleased to be able to have our second hearing on military 
construction. Last week, we had the first of our hearings, and 
today we are doing Army and Air Force. I want to welcome all of 
you to the Committee. My Ranking Member will be here shortly, 
but I wanted to go ahead and start so we could stay on time.
    This is a dynamic year in military construction, and 
especially for the Army. Surely, the Army is doing more than 
probably we could ever have expected, doing modularity, global 
restationing and BRAC, all at the same time, as we are fighting 
the war in Iraq with heavy Army effort.
    There are many demands on the Army right now, and a tough 
budget environment, but it doesn't change the fact that every 
soldier who is reassigned, restationed, or realigned will need 
a place to eat, sleep, and train, and every family will need 
quality education and healthcare.
    Also, the experience of our military families throughout 
the processes of moving will directly affect morale, readiness, 
and retention of our men and women at a time when we must have 
retention.
    So with all of these moving pieces, it seems to me that the 
Army should be investing heavily in infrastructure in order to 
have adequate facilities in place for its soldiers and their 
families when they arrive at the new post. Yet this year's 
budget request is $1.48 billion, down 16 percent from last 
year's request, 25 percent from last year's enacted levels.
    I brought this up last week at the Defense Appropriations 
hearing, with both the Secretary and with General Schoomaker, 
so I do want everyone to know that I am concerned about the 
Army, the demands we're putting on the Army, and a lower 
military construction budget at the same time.
    Having said that, I do so support where the Army is putting 
its increases, and that is in the Guard and Reserve. They are 
going up 23 and 22 percent, respectively, over their 2005 
requests, and the Reserve request is 15 percent above enacted 
levels. That is, I think, a good thing. We have shortchanged 
Guard and Reserve facilities for many years. So, while we're 
not nearly where we need to be, I do support those increases. 
But I will ask you, as the representative of the Department, 
Mr. Prosch, to take back the message that I really believe we 
are shortchanging the Army in military construction.
    On the Air Force, you have a 61 percent increase over 
fiscal year 2005. And, while the Air Force is not facing quite 
the level of change as the Army in the coming year, it will be 
actively participating in BRAC, global restationing, and the 
global war on terror. So there will be infrastructure needs 
over the next few years as these changes play out.
    The Air Force has significantly boosted its family-housing 
budget request. It's up 18 percent from last year. And, as 
ardent a supporter as I am of housing privatization, I am 
pleased to know that with the budgetary cap on the program 
lifted, the Air Force is now really fully engaged in 
privatization. I am concerned that in our desire to meet the 
fiscal year 2007 goal of eliminating inadequate housing to all 
Services, that we also don't forgo responsible budgeting. I do 
think that the Committee, our Committee, needs to be kept 
apprised of the workings of the privatization, and, in cases 
where MILCON has been appropriated for certain projects that 
are now being converted to privatization, I think we need to be 
kept apprised of that and we need to have input when changes 
like that are made.
    With that, I'm going to turn to Senator Allard to see if he 
has an opening statement. And when Senator Feinstein comes, I 
will certainly recognize her.
    Senator Allard.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Madam Chairman. I'd like to 
thank the panel for testifying today. And I'd like to thank 
you. I appreciate the opportunity to welcome our guests from 
both the Army and the Air Force here today.
    Too often, in Congress, we focus on our military's fighting 
units and forget that significant combat-power multipliers are 
Defense installations. If we have the best installations and 
facilities, it will make it that much easier for our soldiers, 
sailors, and the airmen and marines to focus on their mission 
of defending our Nation.
    I'm pleased to welcome our guests here from the Army today. 
I've been impressed by the proactive approach the Army has 
taken to address many of the pressing problems facing its 
military posts, facilities, and training ranges. By thinking 
ahead, I believe the Army is a couple of steps ahead of other 
services, addressing difficult problems, like encroachment and 
shrinking utility of our training ranges.
    And, Madam Chairman, I'll also say that we've got, there at 
Fort Carson--we have some privatization of the housing which 
seems to be working very well. And both Congressman Hefley and 
myself have been following it very closely.
    This praise does not mean the Army doesn't have problems. 
In particular, I am concerned about the redeployment of our 
troops stationed overseas to the continental United States. I 
support this redeployment, as it better addresses our global 
posture, but I am concerned the Army has not thought this 
through. I look forward to asking the witnesses some--from the 
Army some questions on this particular issue, if I'm here. 
Madam Chairman, I've got to leave in about 15 minutes or so.
    Also, we'll be hearing testimony from witnesses from the 
Air Force. And, Madam Chairman, I have serious concerns about 
the way the Air Force has handled the cleanup of one of 
Colorado's former Air Force bases that was closed during a 
prior BRAC round. Once we've gone through BRAC closure, I think 
the follow-up in carrying through your commitments afterwards 
is extremely important. And so, I'll be asking questions in 
regard to the Air Force's lack of effort, and some issues 
regarding a closure that we had in Colorado. I may not be able 
to ask them in person, but, if not, we'll maybe submit 
questions to the Committee. Or perhaps, we'll submit them to 
the Army, and perhaps--maybe they can submit them back to the 
Committee for a response.
    I look forward to working with all of you as we go through 
some difficult priorities setting here on the Committee. And I 
want to thank you, Madam Chairman, for giving me the time to 
say a few words.
    Senator Hutchison. Thank you, Senator Allard.
    We have our first panel today, Mr. Geoffrey Prosch, the 
Principal Deputy Assistant Secretary of the Army for 
Installations and Environment; Major General Geoffrey Miller, 
Assistant Chief of Staff of the Army for Installation 
Management; Major General Walter Pudlowski, Special Assistant 
to the Director of the Army National Guard; and Brigadier 
General Gary Profit, the Deputy Chief of the Army Reserve.
    Mr. Prosch, I'm going to ask you to make your statement, 
but I do want to say how pleased I am with your accessibility. 
I have called on you many times, and you have responded, and I 
appreciate that very, very much. It helps for a very strong 
working relationship.
    So if you--let me just see if my Ranking Member would like 
to make her opening statement now, or would you prefer to wait?
    Senator Feinstein. No statement, Madam Chairman, just to 
welcome everybody. I look forward to their presentations.
    Senator Hutchison. Senator Burns submitted a statement to 
be included in the hearing.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Thank you, Chairwoman Hutchison. Gentlemen, thank you for coming to 
brief our subcommittee this afternoon. Your service and work is 
critical to the development and maintenance of the facilities for our 
soldiers, sailors, airmen, and marines around the world. Since today, 
we are talking specifically about Air Force and Army military 
construction, I will restrict my remarks to those areas. I intend to 
honor our men and women serving and those who have made the ultimate 
sacrifice for our country by ensuring that our active, reserve, and 
national guard have the resources they need to support the current and 
future requirements with which they have been tasked.
    Our military personnel are based in dangerous areas all around the 
world. It speaks well of the character of our young men and women, who, 
despite these dangers, accept this duty and continue their voluntary 
service to our Nation. We must ensure that we provide the resources 
needed to maintain their installations both at home and overseas.
    I hold firm in my belief that replacing dangerous and outdated 
facilities improves morale for our military forces worldwide, 
contributing to better-trained, more enthusiastic service members who 
can complete the mission more effectively and safely. Investing in 
facilities to support the fielding, training, operations, and quality 
of life of our forces pays dividends. When I chaired this subcommittee 
years ago, I did just that in my State of Montana. Our Air Force and 
Guard facilities were ``vintage 1940'' buildings. Today Montana has 
state of the art facilities and it has made all the difference in the 
world for those men and women. So it is that I really feel our 
commitment to quality of life and modern facilities must not end with 
the active forces. We must continue to support essential infrastructure 
improvements for our National Guard forces, which are fighting 
alongside our active duty forces.
    Part of this quality of life includes physical fitness. It is clear 
that Air Force Chief of Staff, General Jumper, is making fitness a 
priority throughout the Air Force. I think this is a good thing. We are 
desperately in need of a new physical fitness center at Malmstrom Air 
Force Base (AFB), in Great Falls, Montana. Some of you may know that it 
can get a little chilly up in Montana during the year. . . . This, 
combined with the fact that Malmstrom AFB has the youngest average age 
of any Air Force base, has really accelerated the need for expansion of 
the existing facility. I hope you--Secretary Kuhn and Major General 
Fox--will work with me in finding a way to get this project 
accomplished as soon as possible.
    We have also had some problems with Air Force contractors over the 
years at Malmstrom AFB, on various family housing projects. It just 
shouldn't be something that our airmen have to worry about--sinking 
foundations, front steps separating from the rest of the house, etc. 
While most of this is currently in litigation, I do look appreciate 
your willingness to continue discussions on these issues with you, 
should further steps need to be taken.
    Mr. Prosch, I also note with interest a specific initiative the 
Army is undertaking as part of an overall improvement to its facilities 
posture. As we listen to your testimony today, I would like to hear 
more about the Army's ``Range and Training Land Strategy'' and hope we 
can discuss this further. Fort Harrison, in Helena, Montana, is a 
wonderful asset to not only the Montana National Guard, but the entire 
United States military. Various units from across the country love to 
come to Fort Harrison to train. I wonder if Fort Harrison could fit 
into this strategy somehow.
    You will continue to have my strong support in these areas, as we 
invest in training and quality of life measures. It is of utmost 
importance that we do what we can to maintain the proficiency, 
readiness, and morale of these soldiers and airmen, whom this Nation 
relies upon to protect freedom and our way of life.
    Again, I thank you for being here today and look forward to your 
testimony. Thank you, Chairwoman Hutchison.

    Senator Hutchison. Thank you.
    Mr. Prosch.
    Mr. Prosch. Thank you, ma'am.

                    STATEMENT OF GEOFFREY G. PROSCH

    Madam Chairman Hutchison, Ranking Member Feinstein, Senator 
Allard, I'm pleased to appear before you with my Army 
Installation partners, Major General Geoffrey Miller from the 
Active Army, Major General Walt Pudlowski from the Army 
National Guard, and Brigadier General Gary Profit from the Army 
Reserve.
    This is my fourth year to have this distinct honor to 
represent our great Army and to testify before Congress. It is 
wonderful to be here today with friends and Army supporters 
from this Committee. We look forward to the opportunities this 
Committee brings toward leveraging enhanced quality of life for 
our soldiers and families.
    We have provided a written statement for the record that 
provides details on our Army's fiscal year 2006 Military 
Construction budget. On behalf of the Army Installation 
Management team, I would like to comment briefly on the 
highlights of our program.
    We begin by expressing our great appreciation for the 
tremendous support that the Congress has provided to our 
soldiers and their families who are serving our country around 
the world. We are a Nation and an Army at war, and our soldiers 
would not be able to perform their missions so well without 
your support.
    We have submitted a military construction budget of $3.3 
billion that will fund our highest-priority active Army, Army 
National Guard, and Army Reserve facilities, along with our 
family housing requirements. This budget request supports our 
Army vision encompassing current readiness, transformation, and 
people.
    As we are fighting the global war on terrorism, we are 
simultaneously transforming to be a more relevant and ready 
Army. We are on a path with the transformation of installation 
management that will allow us to achieve these objectives. We 
currently have hundreds of thousands of soldiers mobilizing and 
demobilizing, deploying and redeploying. More troops are coming 
and going on our installations than in any era since World War 
II. Our soldiers and installations are on point for the Nation.
    And on a special note I would ask everyone here to keep our 
forward-deployed soldiers in your thoughts and prayers. New 
forces have rotated recently to Iraq. The 3rd Infantry Division 
and the 3rd Armored Cavalry Regiment have returned for their 
second tour of duty. The 42nd Infantry Division, Army National 
Guard, the Rainbow Division, has deployed. Now, they are over 
there. The enemy will test them early on. So keep them in your 
prayers.
    The Army recently identified key focus areas to channel our 
efforts to win the global war on terrorism and to increase the 
relevance and readiness of our Army. One of our focus areas is 
``installations as flagships,'' which enhances the ability of 
our installations to project power and support families. Our 
installations support an expeditionary force, where soldiers 
train, mobilize, and deploy to fight and are sustained as they 
reach back for enhanced support. Soldiers and their families 
who live on and off the installation deserve the same quality 
of life as is afforded the society they are pledged to defend. 
Installations are a key ingredient to combat readiness and 
well-being.
    Our worldwide installations' structure is critically linked 
to Army transformation and the successful fielding of the 
modular force. Military construction is a critical tool to 
ensure that our installations remain relevant and ready.
    Our fiscal year 2006 Military Construction budget will 
provide the resources and facilities necessary for continued 
support of our mission. Let me summarize what this budget will 
provide for our Army: new barracks for 5,190 soldiers, adequate 
on-post housing for 5,800 Army families, increased MILCON 
funding for the Army National Guard and the Army Reserve over 
last year's request, new readiness centers for over 3,300 Army 
National Guard soldiers, new Reserve centers for over 2,700 
Army Reserve soldiers, a $292 million military construction 
investment in training readiness, and facilities support and 
improvements for our Stryker Brigades.
    With the sustained and balanced funding represented by this 
budget, our long-term strategies will be supported. With your 
help, we will continue to improve soldier and family quality of 
life, while remaining focused on our Army's transformation to 
the future force.

                           PREPARED STATEMENT

    In closing, Madam Chairman, we thank you for the 
opportunity to outline our program. As I have visited Army 
installations, I have witnessed progress that has been made, 
and we attribute much of this success directly to the 
longstanding support of this Committee and your able staff. 
With your continued assistance, our Army pledges to use fiscal 
year 2006 MILCON funding to remain responsive to our Nation's 
need.
    Thank you for the opportunity to appear before your 
Subcommittee and answer any questions you may have.
    [The statement follows:]

                Prepared Statement of Geoffrey G. Prosch

                              INTRODUCTION

    Madam Chairman and members of the subcommittee, it is a pleasure to 
appear before you to discuss our Army's Military Construction budget 
for fiscal year 2006. Our request includes initiatives and sustainment 
of programs of critical importance to our Army, the Congress, and the 
Global War on Terrorism, and we appreciate the opportunity to report on 
them to you. We would like to start by thanking you for your unwavering 
support to our Soldiers and their families who serve our Nation around 
the world. Their courage and sacrifices remain the foundation of our 
Army, and they would not be able to perform their global missions so 
successfully without your steadfast support.

                                OVERVIEW

    Installations are the home of combat power--a critical component to 
the Nation's force capabilities. The Department of Defense and our Army 
are working to ensure that we deliver cost-effective, safe, and 
environmentally sound capabilities and capacities to support the 
national defense mission.
    Today, United States forces are engaged worldwide in a war against 
global terror. Operations Enduring Freedom and Iraqi Freedom clearly 
underscore the need for a joint, integrated military force ready to 
defeat all threats to United States interests. To meet the security 
challenges of the 21st Century, we require the right blend of people, 
weapons, and support systems. Regarding support systems, we need a 
global framework of Army installations, facilities, ranges, airfields 
and other critical assets that are properly distributed, efficient, and 
capable of ensuring that we can successfully carry out the roles, 
missions, and tasks that safeguard our security at home and overseas.
    The Army's installations framework is multi-purposed. It must 
sustain the regular forward presence of U.S forces as well as their 
emergency deployment in crisis, contingency, and combat. It must have 
the surge capacity to support the mobilization and demobilization of 
our Army reserve component forces. It must also focus 10 to 20 years 
into the future to develop technologically advanced, affordable, and 
effective joint systems and platforms and develop highly qualified and 
committed installation management personnel who will operate and 
maintain them. Our framework must provide a productive, safe, and 
efficient workplace and offer a decent quality of service and 
facilities for our Soldiers and their families (comparable to the 
American citizens off post they are pledged to defend).
    We recognize the enormity of the task to provide the right 
installations framework given the other competing funding programs. We 
are challenged to find the optimum management approach that balances 
the many purposes of our assets. For example, while our installations 
retain their primary military mission to organize, train and equip our 
forces, they also are home to rare species of plants and animals while 
experiencing encroachment from outside civilian communities. Our 
stewardship thus embraces the joint warfighting requirements of the 
Combatant Commanders with environmental management and stewardship of 
our Earth.

                  DEFENSE INSTALLATIONS STRATEGIC PLAN

    In August 2001, the Department of Defense issued the first-ever 
Defense Installations Posture Statement along with the initial Defense 
Facilities Strategic Plan. Those concepts and initiatives have guided 
the Department's programs and budgets and enabled substantial 
improvements in the management and sustainability of our installation 
assets. However, the attacks of September 11, 2001, and the ongoing 
Global War on Terrorism significantly altered our requirement for 
homeland security. The Department of Defense 2004 Installations 
Strategic Plan significantly expands the scope and depth of the initial 
Strategic Plan. The expanded scope reflects the integral relationship 
between natural and manmade assets on our installations. It advances 
the integration of installations and the environmental, safety, and 
occupational health activities to enhance overall support of the 
military mission.
    Our vision is to ensure installation assets and services are 
available when and where needed, with joint capabilities and capacities 
necessary to effectively and efficiently support DOD missions.
    Our mission is to provide, operate, and sustain, in a cost-
effective and environmentally sound manner, the installation assets and 
services necessary to support our military forces--in both peace and 
war.
    Our goals include the following.
    Right Size and Place.--Locate, size, and configure installations 
and installation assets to meet the requirements of both today's and 
tomorrow's force structure.
    Right Quality.--Acquire and maintain joint Army installation assets 
to provide good, safe, and environmentally sound living and working 
places, suitable base services, and effective support for current and 
future missions.
    Right Safety and Security.--Protect Army installation assets from 
threats and unsafe conditions to reduce risk and liabilities.
    Right Resources.--Balance requirements and resources--money, 
people, and equipment--to optimize life-cycle investments and reduce 
budget turbulence.
    Right Tools and Metrics.--Improve portfolio management and planning 
by embracing best business practices, modern asset management 
techniques, and performance assessment metrics.

                             THE WAY AHEAD

    Army installations are the home of U.S. combat power and are an 
inseparable element of the Nation's military readiness and wartime 
effectiveness. From our installations, we generate the combat power 
required today and develop the combat power that will be needed in the 
future. To operate installations effectively and efficiently, we must 
sustain, restore, and modernize all of our installation assets and 
services--all the natural and manmade assets associated with owning, 
managing, and operating an installation, including the facilities, 
people, and internal and external environments.
    Our plan is to deliver a framework of installations, facilities, 
ranges, and other critical assets that is properly distributed, 
efficient, and capable of ensuring that we can successfully carry out 
the roles, missions, and tasks that safeguard our security at home and 
overseas. We have made good progress in many areas, but much remains to 
be done. America's security depends upon installation assets that are 
available when and where needed and with the right capabilities to 
support current and future mission requirements. As the guardians of 
Army installations and environment, we embrace transformation as the 
only way to guarantee these capabilities are delivered--effectively and 
efficiently.

                      ARMY INSTALLATION STRATEGIES

    To improve our Army's facilities posture, we have undertaken 
specific initiatives to focus our resources on the most important 
areas--Barracks, Family Housing, Revitalization/Focused Facilities, 
Range and Training Land Strategy, and Current to Modular Force.
    Barracks Modernization Program.--Our Army is in the 12th year of 
its campaign to modernize barracks to provide 136,000 single enlisted 
permanent party Soldiers with quality living environments. The new 
complexes meet the Department of Defense ``1+1'' or equivalent standard 
by providing two-Soldier suites, increased personal privacy, larger 
rooms with walk-in closets, new furnishings, adequate parking, 
landscaping, and unit administrative offices separated from the 
barracks.
    Army Family Housing.--This year's budget continues our significant 
investment in our Soldiers and their families by supporting our goal to 
have contracts and funding in place to eliminate inadequate housing by 
fiscal year 2007 in the United States and by fiscal year 2008 overseas. 
For families living off-post, the budget for military personnel 
maintains the basic allowance for housing that eliminates out of pocket 
expenses.
    Revitalization/Focused Facilities.--Building on the successes of 
our housing and barracks programs, we are moving to improve the overall 
condition of Army infrastructure with the Focused Facility Strategy. 
The Installation Status Report is used to determine facilities quality 
ratings of C-1 to C-4 based on their ability to support mission 
requirements.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We are a C-1 Army living and working in C-3 facilities. Our goal is 
to reach an overall Army average of C-2 quality by concentrating on 
seven types of C-3 and C-4 facilities. These focus facilities are 
general instruction buildings, Army National Guard Readiness Centers, 
Army Reserve Centers, tactical vehicle maintenance shops, training 
barracks, physical fitness centers, and chapels.
    Army Range and Training Land Strategy.--Ranges and training lands 
enable our Army to train and develop its full capabilities to ensure 
our forces are relevant and ready. Our Army Range and Training Land 
Strategy supports the Department of Defense's training transformation 
goals, Army transformation, and our Army's Sustainable Range Program. 
The Strategy identifies priorities for installations requiring 
resources to modernize ranges, mitigate encroachment, and acquire 
training land.
    Current to Modular Force.--The fiscal year 2006 budget includes 
projects to ensure that our ``training battlefields'' continue to meet 
the demands of force structure, weapons systems, and doctrinal 
requirements. As of fiscal year 2005, we have constructed or funded 80 
percent of the Military Construction requirements for the Stryker 
Brigade Combat Teams.
    Leveraging Resources.--Complementary to these budget strategies, 
the Army also seeks ways to leverage scarce resources and reduce our 
requirements for facilities and real property assets. Privatization 
initiatives such as Residential Communities Initiative (RCI), Utilities 
Privatization, and build-to-lease family housing in Europe and Korea 
represent high payoff programs which have substantially reduced our 
dependence on investment funding. We also benefit from agreements with 
Japan, Korea, and Germany where the Army receives host nation funded 
construction.
    In addition, Congress has provided valuable authorities to utilize 
the value of our non-excess inventory under the Enhanced Use Leasing 
program and to trade facilities in high cost areas for new facilities 
in other locations under the Real Property Exchange program. In both 
cases, we can capitalize on the value of our existing assets to reduce 
un-financed facilities requirements.
    Looking toward the immediate future, we are aggressively reviewing 
our construction standards and processes to align with industry 
innovations and best practices. In doing so, we hope to deliver more 
facilities capability at comparable costs and meet our requirements 
faster.

                         MILITARY CONSTRUCTION

    Our Army's fiscal year 2006 budget request includes $3.3 billion 
for Military Construction appropriations and associated new 
authorizations.

----------------------------------------------------------------------------------------------------------------
                                                                                Authorization
                                                              Authorization          of           Appropriation
            Military Construction Appropriation                  Request       Appropriations        Request
                                                                                   Request
----------------------------------------------------------------------------------------------------------------
Miltiary Construction Army (MCA)..........................    $1,262,719,000    $1,479,841,000    $1,479,841,000
Military Construction Army National Guard (MCNG)..........                NA       327,021,000       327,012,000
Military Construction Army Reserve (MCAR).................                NA       106,077,000       106,077,000
Army Family Housing (AFH).................................       549,636,000     1,362,629,000     1,362,629,000
                                                           -----------------------------------------------------
      Total...............................................     1,812,355,000     3,275,559,000     3,275,559,000
----------------------------------------------------------------------------------------------------------------

                   MILITARY CONSTRUCTION, ARMY (MCA)

    The Active Army fiscal year 2006 Military Construction request is 
$1,262,719,000 for authorization and $1,479,841,000 for authorization 
of appropriations and appropriation. As was the case last year, we have 
included only minimal, critical, overseas projects in this year's 
budget. These projects will provide the infrastructure necessary to 
ensure continued Soldier readiness and family well-being that is 
essential throughout any period of transition.
    People Projects.--The well-being of our Soldiers, civilians, and 
families is inextricably linked to our Army's readiness. We are 
requesting $759 million or 51 percent of our MCA budget for projects to 
improve well-being in significant ways.
    Our Army continues to modernize and construct barracks to provide 
enlisted single Soldiers with quality living environments. This year's 
budget includes 19 barracks projects to provide new or improved housing 
for 5,190 Soldiers. With the approval of $716 million for barracks in 
this budget, 85 percent of our requirement will be funded at the 
``1+1'' or equivalent standard. We are making considerable progress at 
installations in the United States, but will only fund high-priority 
projects at enduring installations in Europe and Korea.
    We are requesting full authorization of $331 million for multi-
phased barracks complexes, but requesting only $156 million in 
appropriations for these projects in fiscal year 2006. Our plan is to 
award each complex, subject to subsequent appropriations, as single 
contracts to gain cost efficiencies, expedite construction, and provide 
uniformity in building systems.
    We are also requesting the second increment of funding, $21 million 
for a Basic Combat Training Complex that was fully authorized last 
year. This Complex will house 1,200 basic trainees and provide company 
and battalion headquarters with classrooms and an exterior physical 
fitness training area. The fiscal year 2006 budget also includes a 
physical fitness center for $6.8 million and a child development center 
for $15.2 million.
    Current Readiness Projects.--Projects in our fiscal year 2006 
budget will enhance training and readiness by providing arrival/
departure facilities, maintenance facilities, and the second phase of a 
library and learning center. We will also construct combined arms 
collective training facilities, shoot houses, an infantry platoon 
battle course, a qualification training range, a multipurpose squad 
course, a digital multipurpose training range, urban assault courses, 
and a modified record fire range. These facilities will provide our 
Soldiers realistic, state-of-the-art live fire training. We are 
requesting a total of $424 million for these high priority projects.
    Modular Force Projects.--Our budget supports transformation of the 
Army to a modern, strategically responsive force. Projects include a 
road upgrade, a tactical vehicle wash facility, a battle area complex, 
a modified urban assault course, and a vehicle maintenance facility. 
Our budget contains $115 million for these projects.
    Other Worldwide Support Programs.--The fiscal year 2006 MCA budget 
includes $141 million for planning and design of future projects. As 
executive agent, our Army also provides oversight of design and 
construction for projects funded by host nations. The fiscal year 2006 
budget requests $20 million for oversight of approximately $800 million 
of host nation funded construction in Japan, Korea, and Europe for all 
Services.
    The fiscal year 2006 budget also contains $20 million for 
unspecified minor construction to address unforeseen critical needs or 
emergent mission requirements that cannot wait for the normal 
programming cycle.

           MILITARY CONSTRUCTION, ARMY NATIONAL GUARD (MCNG)

    Our Army National Guard's fiscal year 2006 Military Construction 
request for $327,012,000 (for appropriation and authorization of 
appropriations) is focused on Current Readiness, Modular Force, and 
other worldwide and unspecified programs.
    Current Readiness Projects.--In fiscal year 2006, our Army National 
Guard has requested $71.6 million for six projects to support current 
readiness. These funds will provide the facilities our Soldiers require 
as they train, mobilize, and deploy. Included are one Readiness Center, 
two maintenance facilities, two training projects, and a training range 
environmental mitigation project.
    Modular Force Projects.--This year, our Army National Guard is 
requesting $201.7 million for 37 projects to transform to a Modular 
Force. There are 13 projects for our Army Division Redesign Study, 
three for Aviation Transformation to provide modernized aircraft and 
change unit structure, four for the Army Range and Training Land 
Strategy, and 17 for the Stryker Brigade Combat Team initiative.
    Other Worldwide Support Programs.--The fiscal year 2006 MCNG budget 
also contains $46.1 million for planning and design of future projects, 
along with $7.6 million for unspecified minor military construction to 
address unforeseen critical needs or emergent mission requirements that 
cannot wait for the normal programming cycle.

               MILITARY CONSTRUCTION, ARMY RESERVE (MCAR)

    Our Army Reserve's fiscal year 2006 Military Construction request 
for $106,077,000 (for appropriation and authorization of 
appropriations) is for Current Readiness and other worldwide 
unspecified programs.
    Current Readiness Projects.--In fiscal year 2006, our Army Reserve 
will invest $56.4 million to construct four new Reserve Centers and the 
second phases of two other Reserve Centers; invest $15.4 million to 
construct the first phase of a three-phase noncommissioned officer 
academy; and $5.4 million for a Public Safety Center--for a total 
facility investment of $77.2 million. Construction of the six Army 
Reserve Centers will support over 2,700 Army Reserve Soldiers. In 
addition, our Army Reserve will invest $11.5 million to construct six 
training ranges, which will be available for joint use by all Army 
components and military services.
    Other Worldwide Unspecified Programs.--The fiscal year 2006 MCAR 
budget request includes $14.4 million for planning and design for 
future year projects. The fiscal year 2006 MCAR budget also contains 
$3.0 million for unspecified minor military construction to address 
unforeseen critical needs or emergent mission requirements that cannot 
wait for the normal programming cycle.

                ARMY FAMILY HOUSING CONSTRUCTION (AFHC)

    Our Army's fiscal year 2006 family housing request is $549,636,000 
(for appropriation, authorization of appropriation, and authorization). 
It continues the successful and well-received Whole Neighborhood 
Revitalization initiative approved by Congress in fiscal year 1992 and 
supported consistently since that time, and our Residential Communities 
Initiative (RCI) program.
    The fiscal year 2006 new construction program provides Whole 
Neighborhood replacement projects at seven locations in support of 709 
families for $231.7 million. In addition, we will replace 709 houses 
and upgrade another 1,112 using traditional military construction.
    The Construction Improvements Program is an integral part of our 
housing revitalization and privatization programs. In fiscal year 2006, 
we are requesting $162.4 million for improvements to 1,112 existing 
units at three locations in the United States and five locations in 
Europe, as well as $138.0 million for scoring and direct equity 
investment in support of privatizing 3,606 units at three RCI 
locations.
    In fiscal year 2006, we are also requesting $17.5 million for 
planning and design for future family housing construction projects 
critically needed for our Soldiers.
    Privatization.--RCI, our Army's Family Housing privatization 
program, is providing quality, sustainable housing and communities that 
our Soldiers and their families can proudly call home. RCI is a 
critical component of our Army's effort to eliminate inadequate family 
housing in the United States. The fiscal year 2006 budget provides 
support to continue implementation of this highly successful program.
    We are leveraging appropriated funds and Government assets by 
entering into long-term partnerships with nationally recognized private 
sector real estate development/management and homebuilder firms to 
obtain financing and management expertise to construct, repair, 
maintain, and operate family housing communities.
    The RCI program currently includes 45 installations with a 
projected end state of almost 84,000 units--over 90 percent of the 
family housing inventory in the United States. By the end of fiscal 
year 2005, our Army will have privatized 29 installations with an end 
state of 60,000 homes. We have privatized over 50,000 homes through 
December 2004, and with your approval of the fiscal year 2006 budget, 
we will have privatized over 71,600 homes by the end of fiscal year 
2006.

                 ARMY FAMILY HOUSING OPERATIONS (AFHO)

    Our Army's fiscal year 2006 family housing operations request is 
$812,993,000 (for appropriation and authorization of appropriations), 
which is approximately 59 percent of the total family housing budget. 
This account provides for annual operations, municipal-type services, 
furnishings, maintenance and repair, utilities, leased family housing, 
demolition of surplus or uneconomical housing, and funds supporting 
management of the Military Housing Privatization Initiative.
    Operations ($138 million).--The operations account includes four 
sub-accounts: management, services, furnishings, and a small 
miscellaneous account. All operations sub-accounts are considered 
``must pay accounts'' based on actual bills that must be paid to manage 
and operate family housing.
    Utilities ($132 million).--The utilities account includes the costs 
of delivering heat, air conditioning, electricity, water, and 
wastewater support for family housing units. While the overall size of 
the utilities account is decreasing with the reduction in supported 
inventory, per-unit costs have increased due to general inflation and 
the increased costs of fuel. We continue to make steady progress in the 
privatization of utility systems/infrastructure on our installations.
    Maintenance and Repair ($309 million).--The maintenance and repair 
(M&R) account supports annual recurring maintenance and major 
maintenance and repair projects to maintain and revitalize family 
housing real property assets. Since most Family Housing operational 
expenses are fixed, M&R is the account most affected by budget changes. 
Funding reductions results in slippage of maintenance projects that 
adversely impacts on Soldiers and family quality of life.
    Leasing ($214 million).--The leasing program provides another way 
of adequately housing our military families. The fiscal year 2006 
budget includes funding for 13,190 housing units, including existing 
Section 2835 (``build-to-lease''--formerly known as 801 leases) project 
requirements, temporary domestic leases in the United States, and 
approximately 8,100 units overseas.
    RCI Management ($20 million).--The RCI management program provides 
funding for the implementation and oversight requirements for 
procurement, environmental studies, real estate support, portfolio 
management, and operation of the overall RCI program.

                  BASE REALIGNMENT AND CLOSURE (BRAC)

    In 1988, Congress established the Defense Base Realignment and 
Closure Commission to ensure a timely, independent and fair process for 
closing and realigning military installations. Since then, the 
Department of Defense has successfully executed four rounds of base 
closures to rid the Department of excess infrastructure and align the 
military's base infrastructure to a reduced threat and force structure. 
Through this effort, our Army estimates approximately $10 billion in 
savings through 2005.
    Our Army is requesting $93.9 million in fiscal year 2006 for prior 
BRAC rounds ($4.5 million to fund caretaking operations of remaining 
properties and $89.4 million for environmental restoration). In fiscal 
year 2006, our Army will complete environmental restoration efforts at 
four installations, leaving nine remaining BRAC installations requiring 
environmental restoration. We also plan to dispose of an additional 
1,119 acres in fiscal year 2006.
    To date, our Army has disposed of 227,429 acres (88 percent of the 
total acreage disposal requirement of 258,607 acres). We have 31,186 
acres remaining to dispose of at 21 installations. Our Army continues 
to save more than $900 million annually from previous BRAC rounds. To 
date, the Army has spent $2.6 billion on BRAC environmental 
restoration.

                       OPERATION AND MAINTENANCE

    The fiscal year 2006 Operation and Maintenance budget includes 
funding for Sustainment, Restoration, and Modernization (S/RM) and Base 
Operations Support (BOS). The S/RM and BOS accounts are inextricably 
linked with our Military Construction programs to successfully support 
our installations. The Army has centralized the management of its 
installations assets under the Installation Management Agency (IMA) to 
best utilize operation and maintenance funding.
    Sustainment, Restoration, and Modernization.--S/RM provides funding 
for the Active and Reserve Components to prevent deterioration and 
obsolescence and restore the readiness of facilities on our 
installations.
    Sustainment is the primary account in installation base support 
funding responsible for maintaining the infrastructure to achieve a 
successful readiness posture for our Army's fighting force. It is the 
first step in our long-term facilities strategy. Installation 
facilities are the mobilization and deployment platforms of America's 
Army and must be properly maintained to be ready to support current 
Army missions and future deployments.
    The second step in our long-term facilities strategy is 
recapitalization by restoring and modernizing our existing facility 
assets. Restoration includes repair and restoration of facilities 
damaged by inadequate sustainment, excessive age, natural disaster, 
fire, accident, or other causes. Modernization includes alteration or 
modernization of facilities solely to implement new or higher 
standards, including regulatory changes, to accommodate new functions, 
or to replace building components that typically last more than 50 
years, such as foundations and structural members.
    Base Operations Support.--This funds programs to operate the bases, 
installations, camps, posts, and stations for our Army worldwide. The 
program includes municipal services, government employee salaries, 
family programs, environmental programs, force protection, audio/
visual, base communication services and installation support contracts. 
Army Community Service and Reserve Component family programs include a 
network of integrated support services that directly impact Soldier 
readiness, retention, and spouse adaptability to military life during 
peacetime and through all phases of mobilization, deployment, and 
demobilization.
    Installation Management Agency.--The Installation Management Agency 
(IMA) is a result of the Army leadership's vision to streamline 
headquarters, create more agile and responsive staffs, reduce layers of 
review and approval, focus on mission, and transform the Army. IMA 
brings together all installation support services under one umbrella to 
promote optimal care and support of Soldiers and families. IMA is at 
the center of the Army's initiative to mold installation support 
functions into a corporate structure, enabling equitable, efficient, 
and effective management of Army installations worldwide. IMA supports 
readiness, promotes well-being, and preserves infrastructure and the 
environment.
    In its first 2 years, IMA has been successful in executing the 
tasks associated with growing a new organization, while simultaneously 
supporting the Global War on Terrorism. In the upcoming year, IMA will 
continue to develop a cadre of leaders to orchestrate excellence in 
installation management; manage installations equitably, effectively, 
and efficiently; support the well-being of the Army's people; practice 
sound stewardship and resource management; deliver improved mission 
support to all organizations; and develop and sustain an innovative, 
team-spirited, highly capable, service-oriented workforce.

                  HOMEOWNERS ASSISTANCE FUND, DEFENSE

    Our Army is the Department of Defense Executive Agent for the 
Homeowners Assistance Program. This program provides assistance to 
homeowners by reducing their losses incident to the disposal of their 
homes when military installations at or near where they are serving or 
employed are ordered to be closed or the scope of operations reduced. 
For fiscal year 2006, there is no request for appropriations and 
authorization of appropriations. Requirements for the program will be 
funded from prior year carryover and revenue from sales of homes. 
Assistance will be continued for personnel at five installations that 
are impacted with either a base closure or a realignment of personnel, 
resulting in adverse economic effects on local communities. The fiscal 
year 2006 Homeowners Assistance Program budget does not include 
resources for potential requirements that the new Base Realignment and 
Closure 2005 process may cause.

              FISCAL YEAR 2005 SUPPLEMENTAL BUDGET REQUEST

    The fiscal year 2005 Supplemental request funds facilities that 
directly support the Global War on Terrorism in both the United States 
and overseas locations. It contains $990.1 million in Military 
Construction for the Active Component Army.
    Within the Central Command area of operations in Afghanistan and 
Iraq, there are $687.3 million for military construction projects. 
Projects in Afghanistan include barracks, a fuel storage tank farm and 
distribution system, Joint operations center, power generation plant, 
and an ammunition supply point. Projects in Iraq include barracks, a 
tactical operations building, medical facilities, an overhead cover 
system for force protection, an equipment support activity, a battalion 
and company headquarters, a 60-mile supply route, and a project to 
encapsulate hazardous materials bunkers.
    Within the Southern Command area of operations at Guantanamo Bay, 
Cuba, there is $41.8 million for two military construction projects--a 
detention facility and a radio range security fence.
    Within the United States, there is $261 million for military 
construction relating to modularity. The projects, distributed to seven 
different locations, include site preparation and utility work, an 
aircraft maintenance hangar, an aircraft hangar, and mobilization and 
training barracks.
    Additionally, the fiscal year 2005 Supplemental budget includes 
$248 million in Other Procurement, Army for relocatable buildings to 
provide temporary barracks, company operations, and dining and 
maintenance facilities at five locations in the United States. These 
are required to support our Soldiers as they prepare for battle.

                                SUMMARY

    Madam Chairman, our fiscal year 2006 budget is a balanced program 
that supports our Soldiers and their families, the Global War on 
Terrorism, Army transformation, readiness and Department of Defense 
installation strategy goals. We are proud to present this budget for 
your consideration because of what this $3.3 billion fiscal year 2006 
budget will provide for our Army:
  --New barracks for 5,190 Solders
  --New housing for 5,800 families
  --Management of 71,600 privatized homes
  --Operation and sustainment of 48,000 government-owned and leased 
        homes
  --New or improved Readiness Centers for over 3,300 Army National 
        Guard Soldiers
  --New Reserve Centers for over 2,700 Army Reserve Soldiers
  --Three Aviation Transformation projects
  --$292 million investment in training ranges
  --Facilities support for two Stryker Brigades
  --Transfer/disposal of 88 percent of prior Base Realignment and 
        Closure acreage
    Our long-term strategies for installations will be accomplished 
through sustained and balanced funding, and with your support, we will 
continue to improve Soldier and family quality of life, while remaining 
focused on our Army's transformation.
    In closing, we would like to thank you again for the opportunity to 
appear before you today and for your continued support for our Army

    Senator Hutchison. Thank you, Mr. Prosch. You are the only 
one on the panel making a statement?
    Mr. Prosch. Yes, ma'am.
    Senator Hutchison. Then I would like to defer to Senator 
Allard, since he has to go, for the first questions. And then I 
will call on Senator Feinstein, and then I will go next. We are 
going to have a 5 minute time rule.
    Senator Allard. Thank you, Madam Chairman.

                EASEMENTS TO PREVENT URBAN ENCROACHMENT

    One of the things that's happening in Fort Carson is that 
we have an opportunity to begin to take advantage of some 
easements around the base there to prevent urban encroachment. 
This is a problem, when we were on Armed Services Committee, 
that we've addressed with some authorizing legislation. And it 
seems as though we have reached a consensus, as far as the 
community leaders are concerned; we have reached consensus as 
far as the base commander is concerned; and we have reached a 
consensus with the property owners around there. The owners are 
willing sellers. In fact, there's only just a couple of 
property owners there who own very large ranches that border 
Fort Carson. There is urban encroachment that's occurring on 
that area, and I think everybody's concerned about it.
    And so, I just want to inquire of you, Mr. Prosch, what 
sort of priority will these conservation easements have 
particularly when we have everything pretty well lined up.
    Mr. Prosch. Sir, we think it's a great program. And we've 
had some real successes in dealing with encroachment at Fort 
Bragg. We're getting some great successes also at Fort Hood and 
at the National Training Center. We've found that at Fort 
Bragg, our pilot initiative with these easements, we were able 
to obtain land around Fort Bragg and work in close coordination 
with the Fish and Wildlife Service, and actually develop a 
nature habitat surrounding Fort Bragg, which allowed us to move 
endangered species habitat to that area and free up training 
area.
    We're doing the same thing at Fort Hood. On the 16th of 
April, we're going to commemorate a partnership with Central 
Texas that will allow us to free up 47,000 acres of land at 
Fort Hood for both training and cattle grazing.
    We're doing the same thing at the NTC, with the leadership 
of Senator Feinstein. And I would welcome the opportunity to 
work closely with you and the great people in Colorado to help 
that.
    If you look at the challenges we have in the environmental 
arena, encroachment and endangered species are the two biggest 
challenges that we have, because they threaten readiness. And 
if we can not do live-fire training and maneuver training, we 
can not get your soldiers combat-ready in the way that the 
threat they're going to see when they hit the ground in another 
area.
    Senator Allard. Well, I thank you for that statement and 
agree with what you're saying.

            RESTATIONING FACILITY REQUIREMENTS--FORT CARSON

    The other thing that's happening in Colorado is that the 
2nd Combat Brigade Team, the 2nd Infantry is being permanently 
transferred from Korea to Fort Carson, Colorado. I understand 
that there may be some significant restationing facility 
requirements. These requirements may cost as much as 300 
million in military construction. I think Fort Carson is not 
the only base facing these challenges. What is the Army's plan 
to meet these requirements?
    Mr. Prosch. Sir, we're anxiously awaiting their arrival, in 
August. And I would turn it over to Geoff Miller, my active 
duty army assistant here, for the details.
    General Miller. Thank you.
    One of the things, Senator, that's going on--you know, 
we're going to do a combination of things at Fort Carson, for 
example. We're going to renovate 17 of our barracks to the 
``One-Plus-One'' standard to welcome the 2nd Brigade Combat 
Team back in. We're also going to do some interim facilities 
that will round out that capability. But we do--and we will 
need to come back to the Congress to ask for military--MILCON 
to be able to have permanent capability once the final 
stationing choices are made, after the BRAC announcements are 
made. So----
    Senator Allard. So that's a request you would make in the 
next budget year, in the 2007 budget year?
    General Miller. Yes, sir, that's correct.
    Senator Allard. I see. Okay.
    Madam Chairman, that pretty well wraps up my questions. And 
I see my time's close to running out. And I thank you.
    Senator Hutchison. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Madam Chairman.
    Senator Hutchison. And we're on a 5 minute rule.
    Senator Feinstein. Thank you.

                        DECREASED BUDGET REQUEST

    Why is the Army's request decreased by 16\1/2\ percent, 
when the Army's overall facilities quality rating is C3?
    Mr. Prosch. Ma'am, you'll see a decrease in military 
construction in this budget over what we did last year. Some of 
the rationale on that is that, because of the great success in 
our privatization for housing, we don't have to do as much 
military construction for housing. You can see that our OCONUS 
military construction is focused in our enduring installations. 
We're going to ask for your support for that OCONUS 
construction. Our military housing overseas, we are now----
    Senator Feinstein. Well, let me just stop you. As I 
understand, the housing request has a drop of $220 million, or 
13 percent--actually, 12.9 percent--from last year's request, 
but the overall MILCON is down 16\1/2\ percent. In the time 
I've been on the committee, I've never seen anything quite like 
this, in terms of a decrease of the most active service engaged 
in war today.

                              RCI PROGRAM

    Mr. Prosch. Yes, ma'am. The family housing operations is 
dropped because of the success of the RCI program, because the 
operations are funded by Basic Allowance for Housing (BAH) 
funds to our privatization partner now. So that's one reason 
why you see a drop there. And that's been very successful. And 
that accounts for several hundred million dollars in drop of 
the family housing operations piece. But if you look at the----
    Senator Feinstein. You're saying that the same number of 
housing units are built, but built this much more cheaply?
    Mr. Prosch. We have 23 installations where we have 
privatized housing. One of the great success stories is at 
Presidio of Monterey. And what you see there is, we used the 
basic allowance for housing as the income stream to fund that. 
And our privatization partners construct and do the family 
housing operations for those programs, so that the Army is 
still funding it, but it's a different stream; it's not through 
the military construction program now. And----
    Senator Feinstein. Well, I'm just wondering, can you say, 
then, that private building of military housing is a big enough 
savings to reduce your budget by 16\1/2\ percent?
    Mr. Prosch. I'm just talking about the operations of family 
housing right now.
    Senator Feinstein. Something--I mean, just something in the 
numbers don't jive.
    Mr. Prosch. Right.
    Senator Feinstein. And maybe we could work together and see 
if----
    Mr. Prosch. Sure.
    Senator Feinstein [continuing]. We can get an understanding 
of those numbers.
    Mr. Prosch. Yes, ma'am.
    Senator Feinstein. Because I don't understand it.
    I would like to ask you a question about--Senator Allard 
has similar concerns but about Fort Ord in----
    Mr. Prosch. Yes, ma'am.

                   FORT ORD BURN--REMEDIATION FUNDING

    Senator Feinstein [continuing]. California. The Army, 
according to this, intends to spend $4.8 million this coming 
year. And last year, range fires burned nearly 2,000 acres of 
Fort Ord at a location that the Army has had difficulty 
clearing because of native grasses. So the fire took care of it 
for you. Could you please describe for me the efforts taken by 
the Army last year at Fort Ord, and explain the funding and the 
time required to complete the remediation actions there?
    Mr. Prosch. Yes, ma'am.
    At Fort Ord, the Army had scheduled a 500-acre programmed 
burn to try to take out some of the chaparral, native species, 
endangered plant there. And it got out of control, but was 
contained on post, and 1,470 acres were, in fact, burned. We 
have been able to surface-clear all of that 1,470 acres. The 
unexploded ordnance is the biggest challenge that we have with 
the range there at Fort Ord. To date, the Army has spent $344.4 
million at Fort Ord. So we are steadily making progress. Last 
year, we spent $26.9 million in order to try to continue to 
make steady progress at Fort Ord. We have cleared, so far, a 
total of 27,000 acres at Fort Ord. We have, remaining, 14,000.
    The biggest challenge is the impact area there, the 7,000 
acres, in a range where the Army has been firing ordnance since 
1917. The $4.8 million allocated for fiscal year 2006, we 
believe, is a balanced approach to try to deal with land that 
we're prepared to turn over. Should we have an opportunity to 
have a more rapid turnover, we could put some more money into 
that.
    I would like to compliment Congressman Farr and the 
stakeholders there in the Monterey area. They have established 
a Strategic Management Assessment Requirements Technology Team, 
called a SMART Team. And we have very, very good cooperation 
with the stakeholders, the local people, the environmental 
community there. And we will continue to try to press on with 
this, as best we can.
    Anything you'd like to add, Geoff?
    General Miller. I think one other thing, Senator, if we can 
add onto--is the SMART Team that's come on. We're using a new 
technology, which is an aerial survey technology using ground-
penetrating radar to locate the ordnance in the old impact area 
so we can more rapidly make the decision. We think this is 
going to speed our ability to get at this last 14,000 acres, 
and then move back to public use of that land as quickly as 
possible.
    Senator Feinstein. So you have adequate funding to do what 
you need to do.
    General Miller. Yes, ma'am.
    Senator Feinstein. So if I watch, I'll be very pleased by 
what I see?
    General Miller. We believe that after we do this next 
survey, that we can more rapidly get in, and there may be an 
opportunity to invest in some--in the success that that will 
have.
    Senator Feinstein. Okay.

        WEAPONS OF MASS DESTRUCTION CIVIL SUPPORT TEAMS FUNDING

    General Pudlowski, this committee has added funding each of 
the past 3 years to implement the construction program of the 
Army Guard's Weapons of Mass Destruction CST program. How many 
facilities remain to be completed? And how much funding will be 
necessary?
    General Pudlowski. Thank you, ma'am.
    First, let me thank you and the rest of the leadership, and 
tell you that the Guard soldiers are performing extremely well 
today in the Gulf and in other places throughout the world. And 
particularly from California, the number of soldiers that have 
come out of the 40th Division have been tremendous in assisting 
other commands in their preparations and efforts----
    Senator Feinstein. This committee anticipates that Guard 
soldiers from California and Texas are the best in America.
    General Pudlowski. Ma'am, I will tell you that they are 
doing extremely well----
    Senator Hutchison. And if you don't mention Texas pretty 
fast, you're going to be in big trouble.
    General Pudlowski. I will tell you that the 56th Brigade 
and the 36th Infantry Division is doing just as well in the 
environment today. Those comments are coming back daily. And 
the 36th Division's got other missions ahead for their future, 
as well. And, sir, that's not to take away from what Colorado 
has done and how they've contributed.
    Ma'am, to your question, the Civil Support teams are an 
important piece of what we have in the inventory of the 
National Guard, and how they've been employed. We have 23 
additional units that still have to be organized. We're in the 
process of organizing it from a facility perspective. We would 
need the facilities for those 23. Total cost is approximately 
$40 million. And if that resource was made available----
    Senator Feinstein. Okay. So this is how many out of how 
many?
    General Pudlowski. This is 23 out of 55.
    Senator Feinstein. Thank you. And so, you anticipate that 
it'll be completed when? All 55.
    General Pudlowski. At the current rate, it would take us 
the next 5 years of the FYDP to accomplish that. But for a cost 
of $40 million--each one is approximately two-point-some-
approximately $2 million apiece--we would be able to complete 
that whole operation.
    Senator Feinstein. Thank you.

                     RESERVES TRAINING--CALIFORNIA

    Mr. Prosch. Ma'am, may I just make one comment about a 
great contribution that Fort Hunter Liggett and Camp Roberts in 
California provide to all the Reserves in the western part of 
the United States. Without Fort Hunter Liggett, we wouldn't 
have a significant maneuver area for them to utilize, because 
the National Training Center is very busy with the active 
force. Camp Pendleton has encroachment challenges and they're 
busy, and Fort Lewis is very busy. So it's very important for 
our Reserve forces. And Hunter Liggett allows not only the 
combat brigades, but also the combat-service support and the 
logistical units to train there. So they have tremendous 
capability, and they also have good support with the local 
communities. So we thank you.
    Senator Feinstein. So it's reasonable to believe, Mr. 
Secretary, that the Army is going to retain Hunter Liggett.
    Mr. Prosch. The Army is evaluating all installations fairly 
and squarely. You'll be very proud of the process, when the 
list comes out on May 17, based on military criteria.
    Senator Feinstein. Thank you.

                      GLOBAL RESTATIONING FUNDING

    Senator Hutchison. Mr. Prosch, the Army is the service most 
affected by the Integrated Global Presence and Basing Strategy, 
and we're looking at 60,000 to 70,000 troops coming home. That 
has been announced. You know, I advocated that initiative, and 
am very pleased that it is going forward. I don't see very much 
in this budget request that supports restationing, aside from 
around $392 million earmarked in the BRAC account for global 
restationing.
    My question is, first of all, is that $392 million in the 
BRAC account for the global restationing for the Army? That's 
my first question on this subject.

                          SUPPLEMENTAL FUNDING

    Mr. Prosch. We are going to be relying heavily on the 
supplemental to assist us with the standup of our ten new 
brigades and with the restationing of units that come from 
overseas. We are using BRAC as a strategic lever to determine 
the right location to put all these places.
    Senator Hutchison. Are you--you're saying 
``supplemental''--are you looking at a future supplemental, 
after BRAC, in which you would start the process of preparing 
bases that are going to take these people, or are you talking 
about a great big MILCON commitment in the next year's budget 
for that purpose?
    Mr. Prosch. When you look at the supplemental right now, 
you see that we've got money earmarked to support modularity--I 
have some handouts here that your people could perhaps show to 
you--that we're using to provide facilities at the temporary 
locations where we put our ten new brigades. On the 17th of 
March, as part of the BRAC announcement, we will also include 
the locations of where we're going to move the units that are 
coming from overseas.
    We are going to come to you, after the BRAC is announced, 
to get your support for the MILCON funding for the long-term 
answer to these organizations. But we're using the supplemental 
now in 2005, because we're standing up new brigades, as we 
speak.
    Geoff, do you want to comment?
    Senator Hutchison. You meant May, sir.
    Mr. Prosch. 16th of May. I'm sorry.
    Senator Hutchison. Yeah, I was thinking, what's today?
    Mr. Prosch. On the 15th of March, they're going to announce 
the BRAC commissioners.
    Senator Hutchison. Yes.
    Mr. Prosch. So the 16th of May is----
    Senator Hutchison. Is the BRAC day.
    And you will be, in that BRAC announcement, making the 
choices of where the incoming brigades are going.
    Mr. Prosch. Yes, ma'am.
    Senator Hutchison. So I'd just--the reason I'm pursuing 
this is that I've gotten some mixed signals about funding for 
the moves. I just want to make sure that the commitment to the 
moves is made, it is there, and the money will follow.
    Mr. Prosch. Yes, ma'am.
    Senator Hutchison. Thank you.
    Mr. Prosch. I would just add that we have announced the 
units that are going to be returning.
    Senator Hutchison. Yes. You just haven't announced where 
they're going.
    Mr. Prosch. The when and the where--the where will be 
determined by the BRAC analysis.
    Senator Hutchison. Right.
    Mr. Prosch. And the when--we're going to try to make the 
right decisions, based on quality of life. We will want to 
coordinate with the local school districts. We're going to want 
to make sure that we have adequate housing. But we're going to 
want to make sure that we've developed brigade-sized facilities 
for these units when they come back.
    Senator Hutchison. Yes, I think all of that is absolutely 
essential and the correct way to approach it. I just have 
gotten mixed signals about the money being available to make 
these moves. And as long as you're telling me the commitment is 
going to be kept, that those troops will be moving home, and 
that we will have the funding request to do it. That's all I 
need to know.
    Mr. Prosch. Yes, ma'am.
    Senator Hutchison. And you have said yes. Correct?
    Mr. Prosch. Yes, ma'am.

             OVERHEAD AND COMPARTMENT PROTECTION LOCATIONS

    Senator Hutchison. In the supplemental that is going to be 
before us shortly, the Army has requested $300 million for 
overhead and compartment protection at various locations, but 
no specificity. Could you elaborate on where those will be and 
what you're envisioning the uses for that $300 million to be?
    Mr. Prosch. Yes, ma'am. Let me start, then I'll turn it to 
Geoff Miller, who returned from Iraq about 3 months ago.
    As part of the supplemental, one of the requests from the 
combatant commander, General Abizaid, was to try to provide 
enhanced overhead protection for our soldiers in theater. And 
so, we, as the executive agent, are trying to support the 
combatant commander's request. As you recall, there was a 
dining facility that was attacked recently. There is a distinct 
threat from mortar and rocket attacks. And so, they would like 
to provide enhanced protection for the large-density troop-
soldier areas. It's a two-level type of facility, to where the 
top level would absorb the blast, and the second level would 
actually stop the fragmentation from hitting the troops.
    Senator Hutchison. And where--I understand that, and that's 
a very good explanation, but as you are expanding, are you 
looking at doing these all throughout Iraq and also 
Afghanistan, or are we just looking at Iraq?
    General Miller. Senator, right now they're focused on Iraq. 
There are 41 different locations, and, as Mr. Prosch said, 
they're in--where troops are concentrated--in living areas, in 
dining facilities. And kind of the rule of thumb, if there are 
more than 50 soldiers in an area, we wanted to put overhead 
cover, because we have a--we were having a fairly significant 
challenge in mortars. And that's going down. But these went in. 
So they will go into the Afghanistan--really, around Baghram 
Airport--as we build that up.
    Senator Hutchison. I just want to, on a personal note, say, 
I was privileged to give four Purple Hearts to those who were 
in that dining facility, and I was--it was during December--I 
was most struck by how quickly they got to Brooke Army Medical. 
I think they got there Christmas Eve, and the attack was maybe 
the 19th, something very quick. I was very pleased. And, of 
course, they were great. I met with each of them before I was 
able to give them their Purple Hearts, and they were great 
young people. Just amazing.
    General Miller. Senator, if I can, for the record, we'll 
come back and give you the 41 locations----
    Senator Hutchison. Okay.
    General Miller [continuing]. Where we're going to put--be 
putting this overhead cover.
    Senator Hutchison. Thank you.
    [The information follows:]
                     Overhead Cover Locations--Iraq
    The following list identifies the 41 facilities currently scheduled 
to receive overhead cover. U.S. Central Command is continuing to 
identify additional facilities that require overhead cover:

                        [In thousands of dollars]
------------------------------------------------------------------------
              Location                        Facility            Cost
------------------------------------------------------------------------
Anaconda............................  Dining Facility........    $14,590
Anaconda............................  Post Exchange--East....      3,660
Anaconda............................  Post Exchange--West....      3,000
Fallujah............................  Dining Facility 1......      3,200
Fallujah............................  Dining Facility 2......      3,200
Fallujah............................  Post Exchange..........        800
Marez...............................  Dining Facility........     12,000
Kalsu...............................  Dining Facility........      1,450
Freedom.............................  Dining Facility........      2,129
Hope................................  Dining Facility........      6,000
Falcon..............................  Dining Facility........      7,278
Taji................................  Dining Facility 1......      8,400
Taji................................  Dining Facility 2......      8,400
Diamondback.........................  Dining Facility........      8,000
Rustimiyah..........................  Dining Facility........      3,090
Brassfield..........................  Dining Facility/Gym....        200
McKenzie............................  Dining Facility........      1,920
Caldwell............................  Dining Facility 1......      2,077
Caldwell............................  Dining Facility 2......      2,077
Caldwell............................  Dining Facility........        804
Warrior.............................  Building 4098..........      5,683
Warrior.............................  Building 4088..........      1,151
Warrior.............................  Building 4096..........        172
Prosperity..........................  Dining Facility........      2,000
Victory.............................  Dining Facility........      6,626
Victory South.......................  MWR Dining Facility....     19,700
Victory South.......................  Cafe Dining Facility...     15,400
Liberty.............................  Dining Facility              6,750
                                       DeFleury.
Liberty.............................  Dining Facility Black..      6,750
Liberty.............................  Dining Facility Pegasus      3,129
Gaines Mills........................  Dining Facility........        160
Speicher............................  Dining Facility........      3,710
Speicher............................  Dining Facility Victory      3,710
Danger..............................  Dining Facility........      2,000
Cobra...............................  Dining Facility I......        408
Summerall...........................  Post Exchange..........         50
Summerall...........................  Dining Facility........        124
Hurricane Point.....................  Dining Facility........        846
Hurricane Point.....................  Post Exchange..........         48
Taqqadum............................  Dining Facility 1......     13,617
Taqqadum............................  Dining Facility 2......      1,808
Various Sites.......................  Miscellaneous..........    113,833
                                                              ----------
      TOTAL.........................  .......................    300,000
------------------------------------------------------------------------

    Senator Hutchison. My last question, and then I'll see if 
Senator Feinstein has any others for this panel.

                     JOINT BASING--ELLINGSTON FIELD

    Mr. Prosch, as you know I am supportive of the service's 
move toward joint basing, specifically Ellington Field. You are 
very familiar with what we're doing there, and have been 
terrifically supportive. And I just wanted to ask you what the 
status is, from your standpoint, of the move of the Army over 
to Ellington Field from its present location, the Reserve unit 
in Houston, and see if you think that everything is going to go 
well there, and what you determine the status to be.
    Mr. Prosch. Ma'am, I'm very pleased to announce that 
Ellington Field is on schedule.
    Senator Hutchison. Great.
    Mr. Prosch. And I would like to thank the Members of 
Congress for giving us a really good tool, which is called the 
Real Property Exchange. And we have been able to use that in a 
lot of places around the country where you have old armories in 
an urban, central part of town, where the land is very 
valuable, but the facilities are antiquated, and then trade 
that land and build a modern joint facility out in the suburbs. 
And that's exactly what we're doing at Ellington Field. We're 
taking some valuable land, we've got a partnership with the 
University of Texas Medical Association, and we're going to get 
a fair market value and plow that into a joint facility, with 
both the Army, Navy, Marine, and Air Guard at Ellington Field, 
which is a very strategic location, critical for the defense of 
the petrochemical industry.
    And the land surveys are on track. We anticipate that the 
environmental studies will be completed in June of this year. 
We plan to complete all of the actual construction plans this 
summer. We anticipate to do an award in 2006, and actually 
break ground in 2006. We hope to have a memorandum of agreement 
signed with the Army and the University of Texas in August, and 
we'll send you an invitation to that signing ceremony.
    Senator Hutchison. Thank you very much. I'm very pleased 
that it is going on track. I think what you're doing there and 
in other places is so right. It's right for the community, and 
it's right for our Services to be in better locations. And 
particularly this one, with the unique security risk of those 
chemical complexes, I think it is just essential to have the 
Air Force, Army, and Navy and Marine components there. It will 
very helpful. Along with the Coast Guard.
    Mr. Prosch. I might ask my colleagues from the Reserves to 
comment.
    Senator Hutchison. General Pudlowski?

                            JOINT FACILITIES

    General Pudlowski. Ma'am, if I may, we, too, have seen, in 
the Guard, the opportunities that are presented by joint 
facilities. Last year when we came here, we had approximately 
140 facilities that we had occupied in a joint fashion. By the 
end of the year, that had jumped up to 170 locations, and we've 
got 26 more projects that are scheduled in the FYDP.
    I'll just give you a couple of examples of that. In Austin, 
Texas, we have two facilities, one of which will be a 
maintenance facility, that'll be a joint maintenance facility 
shared with the Army Reserve. And we have an Armed Forces 
Reserve Center that'll be shared with the Army Reserve, the 
National Guard, the Marine Corps Reserve, and the Naval 
Reserve, which gives us a greater approach and a greater appeal 
as to how we're going to do that. In California, we have the 
Los Alamitos facility that's going to be shared, not only with 
the Army Reserve, but also with the active Army. We continually 
look for those opportunities.
    We're also seeing some others occur--for example, in West 
Virginia, where we have a training site--that we would look at 
the potential of that to be shared as a joint COOP site, with 
perhaps even the Department of Energy.
    So there are opportunities here, and each time we find this 
opportunity, we seek it because it, in effect, conserves some 
of the State cost for that additional 25 percent when we make 
it a full Federal project.
    Thank you.
    Senator Hutchison. Thank you very much. I'm so pleased that 
you're doing that throughout the country. I just think it's the 
right thing.
    General Profit. Ma'am, I would only add to what Mr. Prosch 
said about Ellington Field, that we're proud to be leading that 
effort in the Army Reserve, and I think your leadership in this 
particular effort has been pivotal, and I appreciate it.
    Thank you very much.
    Senator Hutchison. Thank you very much.
    That's all I have for this panel.
    Senator Feinstein.

                    MILCON PROJECTS IN SUPPLEMENTAL

    Senator Feinstein. I'm still into the 16\1/2\ percent. As I 
understand it, you took $138 million in MILCON projects and put 
them into the supplemental. And they include $100 million in 
these areas: the child development center for Fort Carson--I 
don't know why that's an emergency, if, in fact, it is in the 
supplemental; a barracks complex at Fort Lewis for $15\1/2\ 
million; a barracks at Fort Leonard Wood for $14.8 million; and 
then you have the whole--I guess, the modularity thing 
worldwide, at $100 million. Is that all correct, what I've just 
read?
    Mr. Prosch. I'm going to ask Geoff Miller to talk to 
specifics, and then let me try another try at why our MILCON 
request is down 16 percent.
    General Miller. Senator, the----
    Senator Feinstein. I think I probably misspoke. And I still 
don't understand it. But you have put an amount for modularity 
into the supplemental, right?
    Mr. Prosch. Yes, ma'am.
    Senator Feinstein. How much is that? Is that $100 million?
    Mr. Prosch. Geoff?
    Senator Feinstein. What is it? It's $180 million? All for 
modularity, in the supplemental?
    General Miller. Ma'am, we have a total of $559 million in 
the supplemental that is supporting modularity and movement 
through there. And it is a combination of OPA funds to buy 
modular facilities, interim facilities, in MILCON to do the 
preparatory work to allow these modular facilities that are 
barracks and headquarters.
    So this is startup money, as Senator Hutchison pointed out, 
because we will come back in the future and ask for MILCON as 
we make the permanent stationing choices then to be able to 
transition these troops that are coming back from overseas and 
in the modularity piece, so we can have permanent facilities 
there.
    Senator Feinstein. Well, just so--I don't know whether this 
qualifies as an emergency, but, clearly, it's certainly a way 
of doing it. I mean, what you did is, you took a part of out of 
this budget and simply put it in the emergency supplemental, if 
I understand it.

                           MODULAR FACILITIES

    Mr. Prosch. Well, if I could just comment, we are growing 
10 new brigades to try to stretch out the OPTEMPO period that 
our soldiers have so they don't have to go back to Iraq every 
other year. As we stand up these ten new brigade formations--we 
recruited soldiers at Fort Lewis, at Fort Bliss, at Fort Hood--
and so, these soldiers, in order to not to have to put them 
inside gymnasiums and tents, we're going to use these modular 
facilities. So, in a way, this is really helping us fight the 
war on terror, by stretching out the OPTEMPO, and we believe 
this is the right thing to do. And with this supplemental, we 
can do this in 2005, immediately, versus several years in the 
MILCON piece.
    Senator Feinstein. Well, is this going to continue to 
happen as more people come home, that the modulars are going to 
be in emergency supplementals and not part of the regular 
budget process?
    Mr. Prosch. I believe that, after we get these 10 brigades 
stood up, and this time next year when we're testifying before 
you, we're going to be able to lock into military construction, 
because we will have determined the end state for our 43 new 
active brigades and our 77 total brigades in the Army. And 
we'll want to do it the old-fashioned way, with MILCON, with 
permanent facilities.
    Senator Feinstein. I appreciate that statement, Mr. 
Secretary.
    Mr. Prosch. Yes, ma'am.
    Senator Feinstein. I'm going to write it in indelible ink, 
and hopefully hold you to it.
    Mr. Prosch. Yes, ma'am.
    Senator Feinstein. Thank you.
    Thanks, Madam Chairman.
    Senator Hutchison. Well, and I think we could even do 
something before then. If, on May 17, we know where they're 
going, we could start making preparations, depending on the 
timetable that you all have for them moving, but----
    Mr. Prosch. Yes, ma'am, that will be helpful. And we will 
come see you immediately, because it might make sense to do 
some reprogramming within----
    Senator Hutchison. I think one thing that I gleaned from 
Senator Feinstein, and I will say I agree with, the fewer 
modular units and the more permanent construction we can get a 
head start on, the better off we are.
    Senator Feinstein. I really agree with that.
    Senator Hutchison. I just hate that you're doing it right 
now, and it's a huge expense that goes away in use. If we see, 
on May 17, where people are coming back and we can start 
military construction, even if the moves are a year or two 
away, and we can have permanent facilities and not waste money 
on modular units, that would be my preference, for sure. And I 
think we're seeing that on the committee.

                                BARRACKS

    Mr. Prosch. I would like to, just for the record, thank you 
all for the steady progress and support you've made. This is 
our 13th year of our barracks program, and over one-half of our 
active Army MILCON budget is going towards barracks. And we are 
going to be 85 percent complete at the end of 2006 to build out 
to the One-Plus-One standard. And I'm sure you're familiar with 
that. We now, as a standard in the Army, we want our soldiers 
to have a suite, where we have two private sleeping areas with 
a walk-in closet, and a common kitchenette and bathroom area--I 
took my son, when he was a college student, to one of these, 
and he said, ``Wow, where do you enlist, Dad?''
    Senator Hutchison. That's true. I saw those at Fort Bliss, 
the new ones, and it is very, very nice, and so much better 
than what we had before. It's great. They love it.

                     ADDITIONAL COMMITTEE QUESTIONS

    Thank you very much. We appreciate not only your 
accessibility and your work, but also your testimony today.
    Thank you.
    Mr. Prosch. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

                           BRAC ENVIRONMENTAL

    Question. The Navy has sold portions of its previously BRAC'd 
property and ploughed that money back into environmental remediation. 
Has the Army experienced such sales, and, if so, do you have a similar 
agreement with the DOD Comptroller to use those funds for environmental 
remediation?
    Answer. Yes, the Army has received revenues for BRAC properties and 
used the proceeds for environmental remediation.

                            ARMY MODULARITY

    Question. Generals Pudlowski and Profit, do the National Guard and 
Reserves have additional MILCON requirements related to Army 
Modularity?
    Answer. Yes, for the Army National Guard there are additional 
requirements for transformation to the Army Modular Force. The Army 
National Guard is currently assessing and validating all the 
requirements. We will program for these needs once this process is 
complete.
    The Army Reserve does not currently have additional Military 
Construction requirements related to Army Modular Force transformation. 
However, as Army Reserve force structure in support of Modular Forces 
is determined, additional requirements may be identified. The Army 
Reserve will program for any such requirements as soon as they are 
known.

                           GUANTANAMO PRISON

    Question. DOD is requesting a total of $41.8 million, through the 
Army Supplemental request, for construction of a permanent prison and a 
new security fence at Guantanamo, Cuba. The justification documents for 
the Guantanamo construction do not make clear what will be done with 
the current temporary facilities once the new prison is constructed. Do 
you intend to remove or demolish these facilities, or are they to be 
kept in case the prison population exceeds the 220 capacity of the new 
facility? In other words, is DOD expanding the detention facilities at 
Guantanamo, or replacing them?
    Answer. The funding requested in the fiscal year 2005 Supplemental 
Request is to construct a 176 cell, long-term maximum-security 
detention facility for 220 detainees at Guantanamo Bay, Cuba. This 
facility, known as the Camp 6 Detention Facility, will allow for the 
closure of temporary Camps 1, 2, and 3. Although these camps would be 
closed, they would not be destroyed, retaining capability for the Joint 
Task Force commander to reopen them should the detainee population 
surge. By ``mothballing'' these camps and constructing Camp 6, the 
commander will be able to reduce the total internal guard force by 124 
military police.
    Question. If the new prison is to be strictly a replacement 
facility, does that mean the maximum capacity for housing detainees 
will be 220?
    Answer. Camp 6 will have the capacity for 220 maximum security 
detainees. The existing Camp 5, with a capacity of 100 maximum security 
detainees, and Camp 4, with a capacity of 200 medium security 
detainees, will be retained, providing a total capacity of 520.
    Question. What is the current capacity at Guantanamo, and what is 
the current detainee population?
    Answer. The current capacity in Guantanamo (GTMO) in Camps 1 
through 5 is 1,116. The current detainee population, as of March 16, 
2005, exceeds 530. Camps 1, 2 and 3 were designed as temporary medium-
security detention facilities requiring robust forces to guard ``must 
retain'' maximum-security detainees. As temporary facilities, these 
camps are nearing the end of their life expectancy. Refurbishment and 
maintenance costs are becoming prohibitive.
    Question. How did DOD arrive at the 220 bed requirement?
    Answer. The fiscal year 2005 Supplemental funding request is to 
build a 176 cell long-term maximum security facility with a capacity 
for 220 detainees at Guantanamo Bay, Cuba. The facility will include 
132 single cells and 44 double cells. In September 2004, the detainee 
population exceeded 580 detainees. One assumption was that 250 of those 
detainees would be classified as ``retain in DOD control''. The 
remaining 336 would be transferred for continued detention or released 
to their country of origin. The 250 ``retain in DOD control'' would 
require long-term detention due to conviction by military commission, 
intelligence value, or because they are deemed too dangerous to 
transfer or release. The ``retain in DOD control'' number has since 
been revised upward to 300.
    A second assumption was that, as the Global War on Terrorism 
continues, small numbers of additional detainees will arrive for 
screening. Since March 2004, 10 additional detainees have arrived in 
Guantanamo Bay.
    The final assumption is that by building a facility with 220 beds, 
the Joint Task Force could close the temporary detention Camps 1, 2, 
and 3, reduce the number of personnel needed to guard the detainees. 
This will also maintain the capability to provide maximum security, 
long-term detention for up to 320 ``retain in DOD control'' detainees 
in Camps 5 and 6, and medium security detention for an additional 200 
detainees in Camp 4.
    Question. When do you expect the prison population to be reduced to 
that level?
    Answer. Based on detainee movement operations already approved by 
the Deputy Secretary of Defense, the number of detainees could be 
reduced to less than 520 by May 1, 2005.
    Question. What other MILCON will be required to support the 
permanent housing of detainees at Guantanamo? For example, what 
additional facilities will be required for the permanent stationing of 
the military personnel assigned to this mission?
    Answer. We do not plan to seek additional MILCON funding for 
permanent structures at Guantanamo Bay at this time due to other higher 
priorities. The fiscal year 2005 Supplemental funding will be used to 
build the Camp 6 Detention Facility and the Radio Range Security Fence 
to allow for reduced force manning.

                      Department of the Air Force

STATEMENT OF FRED W. KUHN, DEPUTY ASSISTANT SECRETARY 
            OF THE AIR FORCE INSTALLATIONS
ACCOMPANIED BY MAJOR GENERAL L. DEAN FOX, FOR AIR FORCE CIVIL ENGINEER, 
            DEPUTY CHIEF OF STAFF FOR INSTALLATIONS AND LOGISTICS

    Senator Hutchison. And now we will turn to our second 
panel. That would be Mr. Fred Kuhn, the Acting Assistant 
Secretary of the Air Force for Installations, Logistics, and 
Environment; Major General Dean Fox, the Air Force Civil 
Engineer and Deputy Chief of Staff of the Air Force for 
Installations and Logistics.
    Mr. Kuhn. Madam Chairman, Senator Feinstein, distinguished 
members of the committee, good afternoon.
    This year's Air Force MILCON budget is the largest in 14 
years, with increases across the spectrum of Air Force 
operations throughout our Total Force. Our fiscal year 2006 
military family housing submission is the largest in Air Force 
history. It keeps us on target to meet our goal of funding, to 
eliminate CONUS inadequate housing in 2007, and overseas 
inadequate in 2009. The Air Force remains committed to funding 
restoration and modernization to meet the OSD goal of a 67-year 
recapitalization rate by fiscal year 2008 and beyond. The Air 
Force is meeting OSD's facilities sustainment goal by funding 
$2 billion this year, and will continue to fund sustainment in 
accordance with that DOD facility sustainment model.
    I sincerely thank the committee and the Congress for its 
efforts to lift the cap on housing privatization, because the 
Air Force would not have otherwise been able to meet our goal 
of funding the elimination of inadequate housing for Airmen and 
their families by 2007. We thank you for providing the 
privatization tools that allowed us to leverage 173 million 
taxpayer dollars into nearly $1.6 billion invested in 13 of our 
bases and in their local communities. This leverage of nine 
privatized dollars for every taxpayer dollar invested allows us 
to fix 11,000 homes now, and another 34,500 homes over the next 
2 years, rather than burdening the Federal budget with an 
additional $5.6 billion in MILCON funds.
    The success of our privatization program would not be 
possible without the authority you provided in Title 10, United 
States Code, Section 2883, which allows the Secretary of 
Defense to transfer military construction appropriations into 
the family housing improvement fund in order to fund these 
forward costs of our privatization projects. For example, 
Congress appropriated $15 million for Hickam Air Force Base, 
Hawaii, in fiscal year 2002 MILCON to renovate 102 units, but 
we were successful in awarding a privatization project with a 
portion of those MILCON funds to fix 1,356 Hickam Air Force 
Base homes for Airmen and their families. That project had a 
project development value of $298 million invested in the local 
economy at a leverage of 71-to-1. We were able to use the 
remaining MILCON dollars to award other privatization projects, 
like Wright-Patterson Air Force Base, Ohio, where we are 
providing 1,536 homes, totaling $109 million in development.
    Similarly, at Beale Air Force Base, in California, we are 
privatizing 1,344 homes and gaining $151 million in development 
with a government investment of $6.7 million, a 22-to-1 
leverage. This project was in jeopardy following the fiscal 
year 2005 congressional rescission however, using the Section 
2883 authority, we redirected funds from appropriations for 
Eglin Air Force Base, Florida, and Travis Air Force Base, 
California, to cover the Government's fund appeal.
    When using the Section 2883 authority, we always make the 
appropriate notifications to Congress. And I want to emphasize 
that we always fix housing only at locations directed by 
Congress. To that end, we will privatize 2,155 homes at Eglin 
Air Force Base and its neighbor, Hurlburt Field, and 1,179 
homes at Travis Air Force Base, California, using the funds 
originally appropriated for replacement projects at those 
bases.
    The final example I would like to provide is Randolph Air 
Force Base, in Texas, where Congress appropriated funds for 
three MILCON projects in fiscal years 2003 through 2005. These 
three projects would have eliminated 406 inadequate homes at 
Randolph Air Force Base, in Texas. However, by delaying these 
projects and privatizing Randolph in a group with six other 
bases, we will now be able to fix the required inventory of 
3,898 homes, while injecting $415 million into the local 
communities of these seven installations.

                           PREPARED STATEMENT

    These examples are typical of how the Air Force has 
maximized the use of MILCON funds and transfer authority of 
Title 10 to accelerate our program and eliminate inadequate 
housing. As our program continues to execute and we look for 
additional opportunities to privatize, we will absolutely keep 
the Congress informed of every change we make in this area.
    On behalf of all of our Air Force men and women and their 
families, I thank you.
    [The statement follows:]

 Prepared Joint Statement of Fred W. Kuhn and Major General L. Dean Fox

    Madam Chairman, Senator Feinstein, and distinguished members of the 
committee, the strength and flexibility of airpower and our joint 
warfighting success in operations around the world is made possible by 
three interdependent factors; outstanding Airmen, superior weapons 
platforms, and an agile support infrastructure. The Air Force fiscal 
year 2006 military construction (MILCON) submission is our commitment 
to these three factors. It provides our Airmen and their families the 
proper facilities to work and live, which in turn will enable them to 
better execute our air and space missions. This year's Air Force MILCON 
budget request is the largest in 14 years, over $4.7 billion, with 
increases across the spectrum of air and space operations and 
throughout our Total Force. Our fiscal year 2006 Military Family 
Housing (MFH) submission will keep us on target to eliminate inadequate 
housing. The Air Force is committed to funding facility restoration and 
modernization at a 67-year recapitalization rate by fiscal year 2008, 
and funding facility sustainment consistent with OSD's Facility 
Sustainment Model (FSM). Sound investment in our installations allows 
us to take care of our people and their families through quality of 
life and work place improvements.

                              INTRODUCTION

    Air Force facilities, housing, and environmental programs are key 
components of our support infrastructure. At home, our installations 
provide a stable training environment and a place to equip and 
reconstitute our force. Both our stateside and overseas bases provide 
force projection platforms to support combatant commanders. Because of 
this, the Air Force has developed an investment strategy focused on 
sustaining and recapitalizing existing infrastructure, investing in 
quality of life improvements, accommodating new missions, continuing 
strong environmental leadership, optimizing use of public and private 
resources, and eliminating excess and obsolete infrastructure wherever 
we can. Our total force military construction, family housing, and 
sustainment, restoration, and modernization programs are vital to 
supporting operational requirements and maintaining a reasonable 
quality of life for our men and women in uniform and their families.
    The Air Force fiscal year 2006 President's Budget (PB) request of 
just over $1.3 billion for Total Force military construction reflects 
our highest construction priorities. It balances the restoration and 
modernization of current mission facilities, quality of life 
improvements, new mission requirements, future project designs, and 
limited funding for emergency requirements. This request includes $1.07 
billion for active military construction, $165 million for the Air 
National Guard, and more than $79 million for the Air Force Reserve.
    The Air Force fiscal year 2006 PB request of $1.2 billion for the 
Military Family Housing investment program balances new construction, 
improvements, and planning and design work. It will also advance our 
Housing Privatization program. But, while we continue to strive to 
eliminate inadequate housing, we cannot allow more housing to fall into 
disrepair. We need your support to keep our housing operations and 
maintenance submission intact.
    In fiscal year 2006, we will bolster our operations and maintenance 
(O&M) investment in our facilities infrastructure. This investment has 
two components: Sustainment (S) and Restoration and Modernization 
(R&M), which we refer to together as our SRM program. Sustainment funds 
are necessary in order to keep ``good facilities good.'' R&M funding is 
used to fix critical facility deficiencies and improve readiness. In 
this request we have dedicated $2 billion to Total Force sustainment. 
That is 95 percent of the requirement from OSD's Facilities Sustainment 
Model. However, in fiscal year 2006 the Air Force's Total Force R&M 
funds is restricted to $173 million. This means we must defer some R&M 
requirements, which has a cumulative effect on Air Force facilities and 
infrastructure that we must reverse. In the out years we intend to 
invest more heavily in critical infrastructure maintenance and repair 
through our O&M program in order to achieve the Air Force goal of a 
facility recapitalization rate of 67 years by 2008.

Overseas Military Construction
    The quality of installations overseas remains a priority. Even 
though the majority of our Airmen are assigned in the United States, 20 
percent of the force is assigned to extended tours overseas, including 
29,000 Air Force families. Overseas base infrastructure is old and 
progressively deteriorating, requiring increased investment to replace 
and maintain. Host nation funding helps, but it is not enough. We also 
must provide supplemental funding to support time-critical 
infrastructure necessary for the Global War on Terror. The fiscal year 
2006 request for overseas construction includes $193 million for 18 
separate infrastructure and quality of life projects in the United 
Kingdom, Germany, the Azores, Italy, Turkey, Guam, and Korea. All 
projects are in places designated as enduring locations by regional 
commanders, as described in the Global Basing Strategy.
    In addition, we want to thank you for the essential overseas fiscal 
year 2004 MILCON funding you approved in the Emergency Supplemental 
Appropriations Act (H.R. 3289). The supplemental provided essential 
construction projects in Southwest Asia and at critical en-route 
airlift locations directly supporting ongoing operations in that 
region.

Planning and Design/Unspecified Minor Construction
    This year's Air Force MILCON request includes almost $96 million 
for planning and design (P&D), including $40.4 million for military 
family housing. The request includes $79 million for active duty, $12.9 
million for the Air National Guard, and $3.8 million for the Air Force 
Reserve. These funds will allow us to complete the design work for 
fiscal year 2006 construction programs and to start the designs for 
fiscal year 2007 projects, allowing us to award contracts that year. 
However, P&D funds for Congressional inserts and directed designs are 
not funded in the President's Budget request. They are accomplished at 
the expense of other Air Force designs. We would greatly appreciate 
your assistance ensuring adequate P&D funding for any Congressional 
inserts.
    This year's request also includes $24 million for the Total Force 
unspecified minor construction (UMC) program, our primary means for 
funding small, unforeseen projects that cannot wait for the normal 
military construction process. Because these projects emerge over the 
year, it is not possible to predict the total funding requirements. 
When UMC requirements exceed our funding request, we augment them by 
reprogramming available MILCON construction funds.

           SUSTAIN, RESTORE, AND MODERNIZE OUR INFRASTRUCTURE

    The Air Force remains focused on sustaining, restoring, and 
modernizing our infrastructure. In 2006, we have increased sustainment 
funding to keep our ``good facilities good'' and targeted limited 
Restoration and Modernization (R&M) funding to fix critical facility 
deficiencies and improve readiness.
    Our sustainment program is aimed at maximizing the life of our 
infrastructure by keeping our facilities in good condition. Without 
proper sustainment, our infrastructure wears out more rapidly. In 
addition, commanders in the field use O&M accounts to address facility 
requirements that impact their near-term readiness.
    When facilities require restoration or modernization, we use a 
balanced program of O&M and military construction funding to make them 
``mission ready.'' Unfortunately, restoration and modernization 
requirements in past years exceed available O&M funding, causing us to 
defer much-needed work. The restoration and modernization backlog is 
projected to grow to nearly $9.8 billion in 2006. It is important for 
us to steadily increase the investment in restoration and modernization 
in order to halt the growth of this backlog, while fully funding 
sustainment to maximize the life of our good infrastructure
    The Air Force Total Force sustainment funding in fiscal year 2006 
is $2.0 billion, 95 percent of the amount called for by the Facility 
Sustainment Model (FSM) and consistent with established OSD goals. The 
fiscal year 2006 Total Force R&M funding is $173 million. This budget 
carefully balances sustainment, restoration, modernization, and 
military construction programs to make the most effective use of 
available funding in support of the Air Force mission.

           CONTINUE DEMOLITION OF EXCESS, OBSOLETE FACILITIES

    In addition to modernizing and restoring worn out facilities, we 
also demolish excess and obsolete facilities. This ensures funds are 
spent on facilities we need, not on sustaining ones we do not. For the 
past seven years, the Air Force has aggressively demolished or disposed 
of facilities that are unneeded or no longer economically viable. From 
fiscal year 1998 through fiscal year 2004, we demolished 18.5 million 
square feet of non-housing building space. This is equivalent to 
demolishing more than three average size Air Force installations and 
has allowed us to target our infrastructure funding to maintain more 
useful facilities. While this demolition cost us $221 million in O&M 
funding in the short term, it saves us money in the long term. For 
fiscal year 2005 and beyond, the Air Force will continue to identify 
opportunities to eliminate unnecessary facilities.

                 INVEST IN QUALITY OF LIFE IMPROVEMENTS

    The Air Force sees a direct link between readiness and quality of 
life. When Airmen deploy, time spent worrying whether their families 
are safe and secure is time not spent focusing on the mission. Quality 
of life initiatives are critical to our overall combat readiness and to 
recruiting and retaining our country's best and brightest. Family 
housing, dormitories, and other quality of life initiatives reflect our 
commitment to our Airmen.

Family Housing
    The Air Force Family Housing Master Plan details our Housing 
military construction, O&M, and privatization efforts. It is designed 
to ensure safe, affordable, and adequate housing for our members. To 
implement the plan, our fiscal year 2006 budget request for the family 
housing investment program is more than $400 million over the fiscal 
year 2005 budget. Consistent with Department of Defense Strategic 
Planning Guidance, the Air Force intends to eliminate inadequate family 
housing units in the United States by 2007, accelerate funding at four 
northern tier bases one year earlier than originally planned, and 
eliminate inadequate overseas family housing units by 2009. We thank 
you for your assistance in helping keep us on the path to meet these 
goals.
    For fiscal year 2006, the $1.2 billion requested for our housing 
investment program will provide over 2,900 new homes at 17 bases, 
improve more than 2,000 homes at 16 bases, and support privatization of 
more than 2,200 homes at three bases. An additional $767 million will 
be used to pay for maintenance, operations, utilities and leases to 
support the family housing program.

Dormitories
    We are just as committed to providing adequate housing for our 
unaccompanied junior enlisted personnel. We are making great progress 
in our Dormitory Master Plan, a three-phased dormitory investment 
strategy. Phase I, eliminating central latrine dormitories, is complete 
and we are now concentrating on the final two phases of the investment 
strategy. In Phase II we are building new dormitories to eliminate our 
room shortage. In Phase III, we will replace existing dormitories at 
the end of their useful life with a standard Air Force-designed private 
room to improve our young Airmen's quality of life.
    The total Air Force requires 60,200 dormitory rooms. It will cost 
approximately $711 million to fully execute the Air Force Dormitory 
Master Plan. That will replace all inadequate permanent party dormitory 
rooms by fiscal year 2007 and all inadequate technical training 
dormitories by fiscal year 2009. This fiscal year 2006 budget request 
moves us much closer toward these goals, requesting $184 million for 
eight dormitory projects--creating 1,648 new rooms for unaccompanied 
personnel at both stateside and overseas bases. With this request, we 
will reach 47 percent of our final permanent party goal and 19 percent 
of our technical training goal.

Fitness Centers/Family Support Centers
    Along with housing, fitness centers are a critical component of the 
Air Force's quality of life. Our expeditionary nature requires that 
Airmen deploy to all regions of the world, and into extreme 
environments. They must be physically prepared to deal with these 
challenges. Our Airmen must be ``fit to fight.'' Under our new fitness 
program, Airmen are devoting more time and energy to physical fitness. 
As a result, fitness center use has increased dramatically. The Air 
Force Fitness Center Master Plan prioritizes requirements based on 
need, facility condition, MAJCOM input, Operations Tempo, and a 
location's remoteness or isolation. The fiscal year 2006 military 
construction program includes two fitness centers: Charleston Air Force 
Base (AFB), SC and Vandenberg AFB, CA.
    Family Support Centers are also critical to the quality of life of 
our Airmen and their families. They provide needed support services and 
ensure a strong sense of community on our bases. This is especially 
important in overseas locations where our Airmen and their families are 
separated from cultural and community support networks they are 
accustomed to in the United States. For them, our Air Force family 
becomes their primary support structure, especially when a spouse is 
deployed. The fiscal year 2006 submission includes a new Family Support 
Center at Aviano Air Base, Italy.

                        ACCOMMODATE NEW MISSIONS

    Our Airmen are the best in the world, but superior weapons have 
also played a key role in recent joint warfighting successes in the 
Global War on Terrorism. Advanced weapon systems enable our combatant 
commanders to respond quickly in support of national security 
objectives. The fiscal year 2006 Total Force new mission military 
construction program consists of 40 projects, totaling more than $402 
million, and supports core modernization, beddown of new missions, and 
expansion of existing missions. These include Global Hawks at Beale 
AFB, California; Predator force structure changes at Indian Springs Air 
Force Auxiliary Field, Nevada; Combat Search and Rescue aircraft 
beddown at Davis-Monthan AFB, Arizona and a HC-130P simulator facility 
at Kirtland AFB, New Mexico; a Distributed Common Ground Station at 
Hickam AFB, Hawaii; and small diameter bomb facilities at RAF 
Lakenheath, United Kingdom. In particular, two new systems, the F/A-22 
Raptor and the C-17 Globemaster III, require extensive construction 
support.
    The F/A-22 Raptor is the Air Force's next generation air 
superiority fighter, but it is equally capable attacking ground targets 
or gathering intelligence data. Langley AFB, Virginia, will be home for 
the first operational F/A-22 squadrons. Flight training, weapons 
training, and aircraft battle damage repair training will be conducted 
at Tyndall AFB, Florida, Nellis AFB, Nevada, and Hill AFB, Utah. Our 
fiscal year 2006 military construction request includes one F/A-22 
project at Langley AFB, one project at Tyndall AFB, two projects at 
Nellis AFB, and one project at Hill AFB for a total of $47.5 million. 
These projects support the F/A-22 initial beddown and training and will 
not be affected by the final aircraft purchase number.
    The C-17 Globemaster III is replacing our fleet of C-141 
Starlifters. C-17s will be based at Elmendorf AFB, Alaska; Travis AFB 
and March Air Reserve Base (ARB) in California; Dover AFB, Delaware; 
Hickam AFB, Hawaii; Jackson Air National Guard Base, Mississippi; 
McGuire AFB, New Jersey; Altus AFB, Oklahoma; Charleston AFB, South 
Carolina; and McChord AFB, Washington. Thanks to your support, the 
construction funding requirements for Charleston and McChord are 
complete. The request for fiscal year 2006 includes two projects for $6 
million at Dover AFB, three facility projects for $12.6 million at 
Travis AFB, and two facility projects for $54.8 million at Elmendorf 
AFB.

              OPTIMIZE USE OF PUBLIC AND PRIVATE RESOURCES

Housing Privatization
    We would also like to thank you for eliminating the cap on the 
Department of Defense Family Housing Improvement Fund. Our Airmen and 
their families appreciate your staunch commitment to their quality of 
life. To date, we have awarded thirteen privatization projects 
providing 10,977 privatized homes for our Air Force families. The Air 
Force has leveraged an investment of $173 million with private sector 
funding to yield $1.6 billion in total development.
    Last year, we completed three privatization projects (Elmendorf 
AFB, Alaska; Robins AFB, Georgia; and Dyess AFB, Texas) and have three 
more under construction (Wright-Patterson AFB, Ohio; Patrick AFB, 
Florida; and Kirtland AFB, New Mexico). We recently awarded five new 
privatization projects at Moody AFB, Georgia; Little Rock AFB, 
Arkansas; Buckley AFB, Colorado; Hanscom AFB, Massachusetts; Hickam 
AFB, Hawaii; and awarded the second phase of the project at Elmendorf 
AFB. Two years ago we set a goal to privatize 60 percent of U.S.-based 
family housing by 2007. With this budget we are on track to beat that 
goal by an additional 12 percent. The fiscal year 2006 request includes 
$65 million to start privatizing more than 2,200 units at three more 
bases: Peterson AFB and the U.S. Air Force Academy in Colorado; and 
F.E. Warren AFB, Wyoming.

Utility Privatization
    In addition to privatizing housing, the Air Force is interested in 
privatizing utilities where it makes economic sense and does not 
adversely affect readiness, security, or mission accomplishment. Our 
installations are key to our operational capabilities. Our network of 
bases provides necessary infrastructure for deploying, employing, and 
sustaining air and space operations and re-deploying and reconstituting 
the force afterwards. Our bases are also the training platforms from 
which skilled Airmen learn their trades and prepare for deployment. 
Reliable utility services are essential to operations at every Air 
Force base.
    To date, under OSD's utilities privatization program, the Air Force 
has conveyed 10 systems, with a plant replacement value in excess of 
$230 million. By the time the program is complete, we anticipate as 
many as 100 of about 500 systems could be privatized. We are on track 
to meet 95 percent of OSD's milestone: completing Source Selection 
Decisions by September 30, 2005. During the course of this process, we 
expect that many competitive solicitations will end up as sole source 
procurements from local utility companies.

                               CONCLUSION

    The readiness of our fighting force, now and in the future, depends 
upon our infrastructure. We will continue to enhance our installations' 
capabilities and our Airmen's quality of life and ensure Air Force 
infrastructure remains ready to support our global operations.

                         HOUSING PRIVATIZATION

    Senator Hutchison. Thank you very much, Mr. Secretary.
    I think the Air Force has come to privatization a little 
later than some of the other Services, and with some of the 
MILCON money, there has been a determination, after MILCON has 
been appropriated, that privatization would be the better 
route. My question is, How are you going to work with the 
committee in the future to come to us with a change, if you're 
not going to use MILCON money where you told Congress you 
would? Where would this money go if there is a reprogramming 
request? If you're going to go to privatization, we need to 
have some sort of notification. How would you propose to handle 
that?
    Mr. Kuhn. I think there are many ways that we have done 
this and we will continue to do this. One of the ways is, the 
gentleman to my right and the individuals in his office have 
come over to the Congress to talk about every housing 
privatization project in the Air Force, where the MILCON 
started for the projects, and how they interrelated.
    I also see that there are three points in which we also 
come to you under congressional notification. One is in the 
concept approval of the housing privatization program, in which 
we not only do a notification, but we offer to come over to 
talk to your staff about these issues. And we come back a 
second time, before award, to talk to you about the project 
itself, the dollars that were leveraged, any details that you 
would like. And then there's the third notification when the 
money actually gets transferred into the family housing 
improvement fund.
    But I think my commitment to you, and General Fox's 
commitment to you, is that we can, and have, offered to come 
over to talk to this issue on a systematic, periodic basis with 
your staffs, and they have been incredibly responsive to us in 
that, and it's been a very helpful dialogue.
    Senator Hutchison. Good. Thank you.
    Mr. Kuhn. Yes, ma'am.
    Senator Hutchison. Bolling Air Force Base was going to be 
traditional construction but now it is going into 
privatization.
    Mr. Kuhn. Yes, ma'am, into a group.
    Senator Hutchison. Yes. My question is, you're going to 
privatization for Bolling, and are you going to preserve the 
historic houses? How are you going to handle those historic 
homes?
    General Fox. Madam Chairman, we are looking at Bolling Air 
Force Base as a privatization candidate. And when we initially 
looked at Bolling and ruled it out the first time that we 
looked, it was because it was too good a deal for a developer, 
if you would. The basic allowance for housing was too high to 
make it feasible for the government to press ahead. So the only 
way that we look at it and say that it's a smart move for the 
government is to group it with some other bases that might not 
be quite as good a deal. So, in essence, it becomes the way to 
carry some other bases that are not as good a leverage.
    As Mr. Kuhn mentioned, the great thing about privatization 
is the up-front capability that it gives us. We are now seeing 
nine-to-one leverage across our entire housing privatization 
program, which means, for every dollar that the Government puts 
forward up front, we're leveraging nine in private development. 
So that's what makes the program successful for us.
    At Bolling Air Force Base, we're looking at potentially 
grouping with five other bases. And so, as we look at those 
bases and what we press ahead with in privatization, certainly 
we will have the developer give us proposals that will include 
preserving the historic units. I believe that the developer who 
would then own those units will probably have other proposals, 
as well. But, at this point, I don't think that we're able to 
tell you what a proposer would give us, in terms of the 
different propositions that they might make to us.
    Senator Feinstein. Madam Chairman?
    Senator Hutchison. Yes?
    Senator Feinstein. At 2:30, we have a closed intelligence 
meeting on the defense intelligence budget.
    Senator Hutchison. Sure.
    Senator Feinstein. And I'd like to be excused. It's the 
only chance I have----
    Senator Hutchison. Of course. Do you have a question before 
you leave? Whatever is your pleasure.
    Senator Feinstein. I think--can I ask one question----
    Senator Hutchison. Sure.

                     SPANGDAHLEM AIR BASE, GERMANY

    Senator Feinstein [continuing]. On Spangdahlem? Because 
we've gone over this before. There are two project requests for 
Spangdahlem, the large-vehicle inspection station, at $5.4 
million, and the control tower, at $7.1 million. The question I 
wanted to know is, Do we know which air assets will remain at 
Spangdahlem following the global realignment that would support 
the infrastructure improvement? And, secondly, why haven't we 
requested NATO funding for these projects?
    And another project that appears to be eligible for NATO 
funding is a warehouse at Aviano.
    General Fox. Senator Feinstein, the purpose for 
Spangdahlem, for the long term, it is an enduring base. 
Spangdahlem is one of two bases, coupled with Ramstein Air 
Base, also in Germany, that replaced the capability that Rhein-
Main Air Base has provided us.
    Senator Feinstein. General, we went over this. I think it 
was--was it last year?
    Senator Hutchison. Yes.
    Senator Feinstein [continuing]. Last year, so we're 
relatively familiar with it. I mean, part of our problem has 
been that you folks change your mind periodically after we've 
begin a project. And I guess what I want to see is that there 
really is going to be the air assets there to support the 
improvements.
    General Fox. Senator Feinstein, there's no change in 
Spangdahlem, nor Ramstein.
    Senator Feinstein. But that still doesn't answer my 
question, because we've never really, to my knowledge, been 
really assured that the air assets are going to be there.
    General Fox. Both those bases, for the long term, replace 
the Rhein-Main capability that brings heavy airlift through 
Central Europe en route to other NATO locations or Southwest 
Asia.
    Senator Feinstein. So what you're telling us is that, on a 
permanent basis, there will be sufficient air assets at 
Spangdahlem to justify these permanent improvements.
    General Fox. Yes, ma'am. Yes, ma'am. At Spangdahlem and 
Ramstein, both of those become airlift capabilities, to include 
wide-body aircraft, C-5 and C-17 aircraft.
    Senator Feinstein. Have we asked for NATO funding for any 
of this?
    General Fox. Yes, ma'am.
    Senator Feinstein. And is it forthcoming?
    General Fox. The vehicle inspection gate is not eligible 
for NATO funding, but the tower is partially eligible, and we 
have asked for NATO recoupment of funds. So when we go forward 
with that project, we pre finance, and then go back to NATO and 
ask for recoupment of those funds. But Spangdahlem and Ramstein 
both are enduring locations.
    Senator Feinstein. And they will recoup $7.1 million?
    General Fox. No, ma'am. We----
    Senator Feinstein. How much will they give you?
    General Fox. I would have to estimate, at this point. I'll 
answer, for the----
    Senator Feinstein. Well, I'd just like----
    General Fox [continuing]. For the record.
    Senator Feinstein [continuing]. To get you on the record so 
we know the money comes back and that you don't use it for 
something else.

                NATO PRECAUTIONARY PREFINANCE STATEMENT

    General Fox. Senator, the money does not come back to us, 
and I can't use it for something else. When--in a NATO 
scenario, we file a--what is known as a precautionary pre 
finance statement, which tells NATO we intend for them to pay 
back any and all funds that are eligible under NATO. NATO funds 
a minimum military essential requirement. So when they look 
across all NATO member countries, they say--if those NATO 
member countries have a very-much-smaller control tower 
requirement--and usually most countries don't build to our 
standards--they will fund to the minimum standard. And so, we 
can expect to recoup whatever the minimum standard is that 
other countries----
    Senator Feinstein. Of that----
    General Fox [continuing]. Would get.
    Senator Feinstein [continuing]. $7.1 million?
    General Fox. Yes, ma'am.
    Senator Feinstein. Or in excess of the $7.1 million?
    General Fox. A portion of that $7.1 million.
    Senator Feinstein. I guess I don't understand the word 
``recoup''--does that mean----
    General Fox. Recoupment----
    Senator Feinstein [continuing]. They pay you dollars?
    General Fox. Recoupment means that NATO applies, then, 
funds that they will fund against--a project that we pre 
finance--against the United States share to the NATO Security 
Investment Program. So then the following year, the United 
States does not contribute as much as it ordinarily would to 
NATO.
    NATO contributes--NATO's budget, in Security Investment 
Program, is in the neighborhood of about $550 to $600 million 
per year. The United States share of----
    Senator Hutchison. The question I think----
    General Fox [continuing]. That's about 25 percent.
    Senator Hutchison. Right. But what she's saying is, okay, 
we fund it, NATO comes back, say, and gives us $4 million of 
the $7 million in credits to other NATO accounts. So the Air 
Force has funded the NATO commitment, basically.
    General Fox. So----
    Senator Feinstein. So it's taken off of----
    General Fox. Basically, it buys down----
    Senator Feinstein [continuing]. Our NATO commitment.
    General Fox [continuing]. It buys down our normal 
contribution in subsequent years to NATO. It reduces our share.
    Senator Feinstein. Is that same thing true for the 
warehouse at Aviano?
    General Fox. It would be. I can't tell you exactly what 
percentage of the warehouse at Aviano Air Base qualifies for 
NATO, based on the minimum NATO standard. But it is exactly 
true, as a normal course of business in Europe, the U.S. Air 
Forces in Europe files a recoupment request for anything that 
is or might be eligible for NATO funding. NATO funds, normally, 
operational requirements only, and then to a common minimum 
standard across NATO.
    Where we've really leveraged NATO funding very well for the 
United States is when we went to Aviano and did the Aviano 
beddown. We convinced them that, since it was a replacement for 
Crotone Air Base that was not built, that they should also fund 
support facilities, as well. So we leveraged something like 
$350 million that NATO paid for the Aviano beddown, for 
example. So we do claim, for the U.S. Government, everything 
that NATO makes eligible across member nations.
    Senator Feinstein. But it's just deducted from our 
contributions today----
    General Fox. It just means that----
    Senator Feinstein [continuing]. So it's just a fungible 
exchange.
    General Fox. Yes, ma'am. We do not get funding back; it 
just decrements the amount in subsequent years that we the 
United States would normally contribute.
    Senator Feinstein. Thank you both very much. I appreciate 
that.
    Thanks, Madam Chairman.
    Senator Hutchison. Thank you.

                    GOODFELLOW AIR FORCE BASE, TEXAS

    I just have one more, and this is more of a local nature.
    Goodfellow Air Force Base, in San Angelo, Texas, is one of 
the good examples of true joint training facilities. All of the 
services are represented there. I wanted to ask you, it seems 
to me that Goodfellow has a lot of expansion room, and they're 
doing this intelligence training and language training that is 
so essential right now. My question is, do you have any plans 
to expand that mission profile with the same type of 
intelligence and its cryptology and language training for 
intelligence services? Are you looking at any expansions of 
that at this time?
    Mr. Kuhn. I don't know of any expansions, vis-a-vis the Air 
Force. I don't know what DOD or, for instance, the joint cross-
service groups in the BRAC might be looking at for that. But 
I've met with the Goodfellow community on many occasions. We've 
talked about the lands, we've talked about their jointness in 
that area and in other areas, and they've been in the forefront 
of this issue for a lot of years.
    Senator Hutchison. Well, it seems that it has really picked 
up with our war on terrorism, because, of course, we're 
recruiting more people who can, not only----
    Mr. Kuhn. Yes, ma'am.
    Senator Hutchison [continuing]. Learn to speak Arabic, but 
to try to decipher signals. And I just----
    Mr. Kuhn. Yes, ma'am. Where jointness becomes even more 
important. Yes, ma'am, I agree with you. But just where I sit 
in the Air Force, I don't know of any plans of the Air Force to 
do anything for that particular----

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Hutchison. But there is a lot of expansion room 
there.
    Mr. Kuhn. Yes, ma'am, there is.
    Senator Hutchison. Have you been there to see their 
facilities?
    Mr. Kuhn. Yes, ma'am. Had a barbeque there. Yes, ma'am.
    Senator Hutchison. Oh, yes, that's----
    Mr. Kuhn. Yes, ma'am.
    Senator Hutchison. Well, the barbeque is at Dyess, in 
Abilene, also. That's another big one.
    Mr. Kuhn. Been there, too.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                  Questions Submitted to Fred W. Kuhn

          Questions Submitted by Senator Kay Bailey Hutchison

                             FAMILY HOUSING

    Question. Mr. Kuhn, is the Air Force privatizing family housing at 
places where authorization and appropriation for the family housing 
requirements have not been received?
    Answer. No. All of the awarded AF housing privatization projects 
had MILCON projects (for significantly smaller scope or number of 
units) slated for them, including Patrick AFB, which had funds, 
authorized and appropriated that were rescinded by Congress. The Air 
Force uses the authority under Title 10, United States Code Section 
2883, to transfer Military Construction appropriations into the Family 
Housing Improvement Fund in order to fund the scored costs of our 
privatization projects. During the March 16, 2005 Senate Appropriations 
MILCON and Veterans Affairs Committee hearing, Mr. Kuhn affirmatively 
answered Senator Hutchinson's question regarding whether the Air Force 
would notify the committee in cases where MILCON would be used for 
privatization projects. As our Military Family Housing program 
continues to execute and we look for additional privatization 
opportunities we will continue to keep the committee informed of 
changes in our program.

                            BUDGET OVERVIEW

    Question. Mr. Kuhn, I understand you hoped to bring forward a $1.8 
billion MILCON request, but it was reduced to $1.3 billion in the last 
rounds of the budgeting process. What did not get funded as a result of 
that cut?
    Answer. Many changes occurred from the fiscal year 2005 President's 
Budget Request Future Year Defense Program (FYDP) to the fiscal year 
2006 President's Budget Request. Major Commands and Bases were forced 
to defer requirements to future years due to competing budget 
priorities. A list of deferred requirements is attached

                       JOINT FUNDING/JOINT BASING

    Question. Mr. Kuhn, the Defense Department consistently says it 
will emphasize jointness in the upcoming BRAC round which I think is 
exactly the right thing to do. The Air Force generally has the best 
facilities among the Services. How do you intend to embrace jointness 
and still ensure Air Force facilities are of the quality you believe 
you need to most effectively execute your mission?
    Answer. Thank you for the compliment regarding the existing 
infrastructure structure within the Air Force. The Air Force fully 
embraces the concept of jointness through the joint utilization of 
infrastructure assets. This is not a new concept for us. This is 
something we are already doing at the majority of our installations, 
active, guard and reserve today. We strongly believe the responsibility 
to maintain the installation at these high standards belongs to the 
host unit commander. Prior to a new tenant from another service moving 
onto an Air Force installation, the potential tenant and Air Force 
personnel conduct a site survey. The host unit commander informs 
potential tenants of construction compatibility standards, the inter-
service support agreement standards, and tenant funding 
responsibilities. Final approval for inter-service beddown activities 
is at the Secretariat-level where facility and inter-service support 
levels are addressed. This high-level review reinforces the expectation 
to support existing facility and installation services standards. The 
Installation Capability Council, which is chaired by OSD with members 
from the Services and their Secretariats have chartered a Joint Basing 
Group. This group is developing a policy for the Common Delivery of 
Installations Support. The policy will include standards, metrics and 
pricing or reimbursement rules for installations support.
                                 ______
                                 

              Questions Submitted by Senator Wayne Allard

                  LOWRY AIR FORCE BASE-HAZARDOUS WASTE

    Question. All the developers at Lowry Air Force Base, save one, 
have had their claims for asbestos remediation rejected by the Air 
Force. The Colorado Delegation has been patient with the asbestos 
reimbursement cost process, but the Air Force's response has been most 
unsatisfactory. What is remarkable is that the Air Force continues to 
talk up the Lowry Redevelopment as its shining example in the BRAC 
process, yet this glaring unresolved problem remains. Why has the Air 
Force refused to acknowledge its responsibility for the asbestos it 
left at Lowry Air Force Base, including the asbestos found in utility 
pipes?
    Answer. Our approach to asbestos, as well as to other unknown and 
undisclosed contamination on former Air Force property, is consistent 
with the law. We accept the full responsibility imposed by Federal law 
with respect to Air Force contamination that poses an unacceptable risk 
to human health and the environment. Where--as at Lowry--the condition 
of the property was disclosed to and accepted by the Lowry 
Redevelopment Authority (LRA), and where much of the soil there has 
been relocated from other locations on Lowry or brought onto Lowry at 
the direction of the developers or the LRA, our obligations have 
changed. And where--as at Lowry--there has never been a credible, 
science-based assertion that a situation poses an unacceptable risk to 
human health and the environment, the obligations of the Federal 
Government are nonexistent. With respect to your question on asbestos 
materials in utility pipes, the Air Force does not remove underground 
utility pipes from base closure property. The LRA and its builders have 
been aware that the Air Force did not remove the underground utility 
lines. It is the developer's responsibility to ensure the proper 
management of such pipes during construction activities.
    Question. All the developers at Lowry Air Force Base, save one, 
have had their claims for asbestos remediation rejected by the Air 
Force. The Colorado Delegation has been patient with the asbestos 
reimbursement cost process, but the Air Force's response has been most 
unsatisfactory. What is remarkable is that the Air Force continues to 
talk up the Lowry Redevelopment as its shining example in the BRAC 
process, yet this glaring unresolved problem remains. Why has the Air 
Force refused to reimburse the developers who used their own money to 
pay for the Air Force's hazardous waste?
    Answer. Please be assured that the decisions to deny claims were 
made only after careful review of the facts and applicable law, and 
that the decisions were made with the full support of the U.S. 
Department of Justice. The privileged nature of the settlement 
discussions prevents us from discussing any details.
    Question. All the developers at Lowry Air Force Base, save one, 
have had their claims for asbestos remediation rejected by the Air 
Force. The Colorado Delegation has been patient with the asbestos 
reimbursement cost process, but the Air Force's response has been most 
unsatisfactory. What is remarkable is that the Air Force continues to 
talk up the Lowry Redevelopment as its shining example in the BRAC 
process, yet this glaring unresolved problem remains. Don't you find it 
embarrassing that this hasn't been resolved particularly when 
communities from around the country are meeting at Lowry this Spring to 
discuss successful redevelopment strategies?
    Answer. No. The Air Force has followed Federal and State laws in 
its response to the discovery of asbestos at Lowry Air Force Base. The 
developers incurred their costs at the behest of a State agency that 
directed unprecedented sampling and response actions and then, without 
any basis, informed the developers that the Air Force would pay for it. 
It is not the Air Force's responsibility to resolve such errors. We 
believe that Lowry is an excellent example of successful redevelopment 
and we applaud the LRA for the work it has accomplished to date. We 
also note that the meeting in question is sponsored by a non-Federal 
group, the National Association of Installation Developers (NAID). The 
announcement for the June 4-7, 2005 conference presents the following 
information: ``. . . Lowry . . . has reached marketplace success must 
faster than anticipated, while driving an economic engine that is 
helping the region recover . . .'' and ``since closing in 1994, and 
then breaking ground in 1997, Lowry has become one of Denver's hottest 
neighborhoods. Nearly 3,000 new homes for 6,500 residents now command 
premium prices . . . to date the LRA estimates a $4 billion economic 
benefit to the State.''

             LOWRY AIR FORCE BASE-PRIVATIZATION INITIATIVE

    Question. I would also like to point out a good news story from 
Lowry, and that is the privatization initiative. This plan would allow 
the Air Force and the Lowry Redevelopment Authority to privatize the 
remaining environmental issues and to complete the conveyance of all 
the remaining land at Lowry. This effort would effectively end any Air 
Force involvement at Lowry, protect them against any future 
environmental clean-ups, and allow the LRA to privately contract out 
all of the remediation efforts left at the site. I believe that if this 
plan had been put in place prior to the discovery of asbestos in the 
soil at Lowry, the entire issue would have been taken care of in a much 
less confrontational manner. I hope that as we proceed with another 
round of BRAC that the DOD will push for these agreements. Will the 
Department of Defense continue to pursue privatization initiatives with 
the communities that are affected by the BRAC process?
    Answer. Yes, the Air Force will continue to pursue privatization 
initiatives at locations where it is economically feasible. In addition 
to Lowry, the Air Force Real Property Agency is pursuing privatization 
at the former McClellan AFB, CA. In coordination with the Department of 
Defense, the Air Force is developing criteria for the BRAC 2005 
Handbook that will aggressively reflect privatization as a viable 
method under BRAC 2005.
                                 ______
                                 

            Questions Submitted by Senator Dianne Feinstein

                SUPPLEMENTAL REQUEST/KUWAITI AERIAL PORT

    Question. Because of the timing of the President's Budget Request, 
and the submission of the $75 billion Supplemental request, it's 
impossible not to question projects included in the supplemental as 
emergencies. The Air Force has asked for an aerial port at Ali Al Salem 
Air Base in Kuwait. The request is for $75 million and that's just the 
first phase of an unspecified number of phases. First, can you give me 
the total cost and number of phases for this project, and secondly, why 
our location at Kuwait City Airport isn't sufficient? These are 
temporary facilities, are they not?
    Answer. The $75.5 million MILCON request in the fiscal year 2005 
Supplemental is an emergency. It is intended to provide the minimum 
construction requirements necessary to move all flying operations out 
of the Kuwait City International Airport (Mubarak AB) and meet the 
current contingency requirements in support of Operation IRAQI FREEDOM 
(OIF). The project expands the runway, taxiway, aircraft parking, and 
fueling capability at Ali Al Salem (AAS) in order to enable the 
airfield to support wide-body aircraft. Additionally, the project 
provides only the basic facility needs to process passengers, handle 
cargo, plus billeting/dining facilities (using pre-engineered 
buildings). The $75.5 million project in the fiscal year 2005 
Supplemental was developed last year assuming continued commercial 
traffic into Kuwait City International Airport (KCIA). Current revised 
planning assumption is that all U.S. flights will be redirected to AAS 
vice KCIA. With this increased number of daily commercial landing and 
takeoffs, recent pavement/soil analysis done by the Corp of Engineers 
determined that the existing design and condition of the Host Nation 
(HN) airfield will require repairs ($18.3 million to $35 million 
depending on design) to the existing airfield pavements in order to 
support heavy aircraft beyond 2 years. We will request HN funding for 
this effort, and if unsuccessful in obtaining HN funding will submit 
O&M funded repair under section 2811. Bottom line: the $75.5 million 
project will effectively move all operations out of KCIA in the short 
term, but the additional load on the AAS runway will cause it to fail 
unless it is repaired. Next, there is a four-phase plan to transition 
Ali Al Salem into an enduring base with permanent type facilities in 
accordance with the long range CENTCOM Master Plan. These phases are 
not tied to OIF, (like the interim $75 million Supplemental project 
mentioned above), and will be submitted for Host Nation funding/cost 
sharing and potential future U.S. MILCON funding. The preliminary scope 
of work and cost estimates for these future phases are reflected in 
detail in the below spreadsheet.

                        [In thousands of dollars]
------------------------------------------------------------------------
                                                            HN funding
                      Project title                           request
------------------------------------------------------------------------
Phase 1 Priority:
    Conc Strat Lift Ramp 8 wide/48 other................          75,300
    Connecting Taxiways.................................           2,800
    Engine Runup & Maint Pad............................           3,100
    Fuel Hydrant Sys (8 Strat, 24 Other), Ph 1..........          15,000
    Flightline/Satellite Fire Station...................           3,000
    2 Lane Asphalt road, Ph 1...........................           2,000
    Communications......................................           2,200
    Supporting fac, utilities, demo, sitework...........           7,000
    Demining, Ph 1......................................           7,000
                                                         ---------------
      Phase 1 Total.....................................         117,400
                                                         ===============
Phase 2 Priority:
    Operational Fuel Storage............................          10,000
    Fuel Hydrant Sys (8 Strat, 24 Other), Ph 2..........          24,900
    PAX Terminal........................................           5,000
    Fleet Service Warehouse.............................           2,300
    Air Freight Terminal................................           5,000
    Wide body Maintenance Hangar........................          22,400
    Maintenance Shops w/Hangar..........................           4,500
    Hangar Apron........................................           3,600
    Squadron Ops Facility...............................           3,400
    AMU Facility........................................           3,400
    Fuels Ops & Testing Facility........................           1,100
    2 Lane Asphalt road, Ph 2...........................             800
    Army Fac (Troop Processing, Hospital, etc)..........          59,000
    Supporting fac, utilities, demo, sitework...........           7,000
    Demining, Ph 2......................................           7,000
                                                         ---------------
      Phase 2 Total.....................................         159,400
                                                         ===============
Phase 3 Priority:
    12,000 <greek-e> 200 Runway w/50 shoulders..........          23,000
    7,500 <greek-e> 100 Taxiway w/50 shoulders..........          10,500
    Asphalt Overruns....................................           1,300
    Ladder & High Speed Taxiways........................          16,900
    Hot Cargo Pad.......................................           4,900
    Air Traffic Control Tower...........................           1,800
    Airfield Lighting/NAVAIDS...........................          11,200
    2 Lane Asphalt road, Ph 3...........................             800
    Supporting fac, utilities, demo, sitework...........           7,000
    Demining, Ph 3......................................           7,000
                                                         ---------------
      Phase 3 Total.....................................          84,400
                                                         ===============
Phase 4 Priority:
    80 km Pipeline from Refinery........................          38,400
    Flightline Dining Facility..........................           2,700
    Housing (10<greek-e>24 room)........................           8,400
    Repair old runway/taxiway after move................          24,600
    MWR & Support Facilities............................           2,800
    2 Lane Asphalt road, Ph.............................          42,900
    Supporting fac, utilities, demo, sitework...........           7,000
    Demining, Ph 4......................................           7,000
                                                         ---------------
      Phase 4 Total.....................................          93,800
                                                         ---------------
      Cost Sharing Totals...............................         455,000
------------------------------------------------------------------------

    The transition from Kuwait International Airport to Ali Al Salem 
serves two purposes. One, the Government of Kuwait (GoK) has requested 
that all Military operations relocate as they move to establishing a 
Free Trade Zone and increase tourism to their country. Second, by 
consolidating the Aerial Port of Debarkation APOD (currently at KCIA) 
with the passenger processing and tactical airlift (currently at AAS) 
the force protection risk of convoying deploying/redeploying forces 
between these locations is mitigated. Currently Military and U.S. 
commercial aircraft are parked adjacent to the uncontrolled freeway and 
accessible by commercial vehicles operating on KCIA. Bussing troops 
from KCIA to Camp Buehring for in processing, then on to AAS for 
airlift into Iraq exposes them to risk of attack. The fiscal year 2005 
Aerial Port project allows relocation of APOD from KCIA to mitigate 
force protection risks to troops, improves efficiency of logistics and 
troop movements, and satisfies HN request to allow KCIA civil aviation 
expansion. The facilities to be constructed are pre-engineered 
temporary facilities with anticipated life expectancy of 5 to 7 years 
given the extreme temperature conditions of AAS.

                         RECAPITALIZATION RATE

    Question. Mr. Kuhn, as promised, the Air Guard's request is up 
nearly 30 percent from last year's request, but that still only 
represents a $38 million increase. When compared to the amount funded 
with Congressional ads, the Air Guard still falls $73 million below 
last year's funded amount. The recapitalization rate for the Air Guard 
is 163 years--just slightly less than 100 years off the 67 year goal 
set by DOD. Given that only 24 percent of this year's request buys 
current mission projects, how do you plan to buy down the 
recapitalization rate?
    Answer. The OSD goal for the Services to achieve a 67-year 
recapitalization rate is by fiscal year 2008; a goal which the Air 
National Guard is currently programmed to meet. The Air National 
Guard's fiscal year 2006 and fiscal year 2007 MILCON programs continue 
to be dominated by new mission requirements for the beddown of the C-5 
at Memphis, TN and Martinsburg, WV. Projects associated with these 
beddowns are primarily new footprint and do not count toward the 
recapitalization rate. The completion of these beddowns and the up-turn 
in funding projected for fiscal year 2008 will make this possible.
                                 ______
                                 

            Questions Submitted to Major General L. Dean Fox

          Questions Submitted by Senator Kay Bailey Hutchison

               SUSTAINMENT/BASE OPERATIONS SUPPORT (BOS)

    Question. General Fox, your testimony notes your restoration and 
modernization (R&M) backlog will grow to nearly $9.8 billion in 2006. 
It also notes your request for R&M funds was restricted to $173 million 
in fiscal year 2006. How do you expect to make any progress against the 
backlog with such small R&M request?
    Answer. The readiness of our infrastructure remains an emphasis 
item for the Air Force; however, near-term fiscal constraints 
prohibited us from bringing forward a more robust R&M request. During 
the Program Review period, the Air Force was forced to react to major 
adjustments in the overall Department of Defense budget, including 
reductions of almost $4.8 billion to the Air Force budget in fiscal 
year 2006. In developing options to source funding in response to this 
direction, we looked at the full range of Air Force programs, from 
flying programs to installation support programs. While our fiscal year 
2006 budget request for R&M is less than we would prefer, in the out-
years we intend to invest more heavily in critical infrastructure 
maintenance and repair through our R&M program in order to achieve a 
facility recapitalization rate of 67 years by fiscal year 2008. This 
strategy is in line with established OSD goals. This additional 
investment in our R&M program will assist in making progress against 
our R&M backlog.
    Question. General Fox, your testimony notes your restoration and 
modernization (R&M) backlog will grow to nearly $9.8 billion in 2006. 
It also notes your request for R&M funds was restricted to $173 million 
in fiscal year 2006. What funding strategy does the Air Force intend to 
employ to bring down this backlog?
    Answer. Our strategy is to invest more heavily in the out-years in 
critical infrastructure maintenance and repair in order to achieve a 
facility recapitalization rate of 67 years by fiscal year 2008. This 
strategy is in line with established OSD goals. This strategy will 
assist in making progress against our R&M backlog.
    Question. General Fox, your testimony notes your restoration and 
modernization (R&M) backlog will grow to nearly $9.8 billion in 2006. 
It also notes your request for R&M funds was restricted to $173 million 
in fiscal year 2006. Given the backlog, why has the Air Force not asked 
for more R&M?
    Answer. Near-term fiscal constraints prohibited us from bringing 
forward a more robust R&M request. During the Program Review period, 
the Air Force was forced to react to major adjustments in the overall 
Department of Defense budget, including reductions of almost $4.8 
billion to the Air Force budget in fiscal year 2006.
    Question. General Fox, your testimony notes your restoration and 
modernization (R&M) backlog will grow to nearly $9.8 billion in 2006. 
It also notes your request for R&M funds was restricted to $173 million 
in fiscal year 2006. Why has the Air Force not submitted a larger 
sustainment and BOS budget?
    Answer. Sustainment, Base Operating Support (BOS), and Restoration 
and Modernization (R&M) are three separate programs, each with separate 
requirements and associated funding goals. For Sustainment, the Air 
Force's fiscal year 2006 budget request is in keeping with established 
OSD goals; namely, it represents 95 percent of the requirement derived 
from the OSD Facility Sustainment Model. For BOS, while our fiscal year 
2006 budget request is less than we would prefer, near-term fiscal 
constraints prohibited us from bringing forward a more robust BOS 
budget. During the Program Review period, the Air Force was forced to 
react to major adjustments in the overall Department of Defense budget, 
including reductions of almost $4.8 billion to the Air Force budget in 
fiscal year 2006. In developing options to source funding in response 
to this direction, we looked at the full range of Air Force programs, 
from flying programs to installation support programs.
                                 ______
                                 

            Questions Submitted by Senator Dianne Feinstein

                      VANDENBERG AFB/MCCLELLAN AFB

    Question. General Fox, the Air Force plans to spend $34.7 million 
in fiscal year 2006 for environmental remediation at the former 
McClellan AFB. Could you please tell me, what is the extent of 
remediation efforts still required at McClellan, how much time and how 
much funding is still required?
    Answer. Former McClellan AFB is on the EPA National Priorities List 
(NPL) list and is a very complex environmental site. There are nine 
operable units, which have been organized into 15 specific Records of 
Decision (RODs). Two RODs are completed. 2010 is the projected Final 
ROD date, with 2015 being the final remedy in place date. The Estimated 
Cost to Complete is $752 million. The Air Force is seeking to implement 
alternate contracting methods to buyout all or portions of the 
environmental program over the FYDP. Currently 11 percent of the 
property is conveyed. All conveyances are estimated for completion by 
end of 2016.

                       FOREIGN CURRENCY EXCHANGE

    Question. Maj Gen Fox, Your program notes the challenging foreign 
currency exchange rate. The dollar has been in decline for a couple of 
years now. When submitting requests for this budget, did your estimates 
take into consideration the weakened value of the dollar? If so, given 
a consistent dollar valuation, will exchange rates continue to be a 
challenge in fiscal year 2006?
    Answer. Yes, we have taken into consideration the weakened value of 
the dollar in developing the cost estimates of our fiscal year 2006 
overseas projects. However our prior year projects were programmed at 
higher rates of exchange and the issue of exchange rates will remain a 
challenge when making payment for these projects in fiscal year 2006.

                          SUBCOMMITTEE RECESS

    Senator Hutchison. Yeah.
    Well, thank you very much. Those are my questions. And I 
appreciate your being here and look forward to working with 
you.
    Mr. Kuhn. Thank you very much.
    General Fox. Thank you.
    Senator Hutchison. Thank you.
    Our hearing is recessed.
    [Whereupon, at 3:16 p.m., Wednesday, March 16, the 
Subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
